<html>
<title> - CONFIRMATION HEARING ON THE NOMINATION OF CLAUDE A. ALLEN, OF VIRGINIA, TO BE CIRCUIT JUDGE FOR THE FOURTH CIRCUIT; AND MARK R. FILIP, OF ILLINOIS, TO BE DISTRICT JUDGE FOR THE NORTHERN DISTRICT OF ILLINOIS</title>
<body><pre>[Senate Hearing 108-492]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-492

CONFIRMATION HEARING ON THE NOMINATION OF CLAUDE A. ALLEN, OF VIRGINIA, 
   TO BE CIRCUIT JUDGE FOR THE FOURTH CIRCUIT; AND MARK R. FILIP, OF 
  ILLINOIS, TO BE DISTRICT JUDGE FOR THE NORTHERN DISTRICT OF ILLINOIS

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 28, 2003

                               __________

                          Serial No. J-108-48

                               __________

         Printed for the use of the Committee on the Judiciary


                    U.S. GOVERNMENT PRINTING OFFICE
94-083                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                     ORRIN G. HATCH, Utah, Chairman
CHARLES E. GRASSLEY, Iowa            PATRICK J. LEAHY, Vermont
ARLEN SPECTER, Pennsylvania          EDWARD M. KENNEDY, Massachusetts
JON KYL, Arizona                     JOSEPH R. BIDEN, Jr., Delaware
MIKE DeWINE, Ohio                    HERBERT KOHL, Wisconsin
JEFF SESSIONS, Alabama               DIANNE FEINSTEIN, California
LINDSEY O. GRAHAM, South Carolina    RUSSELL D. FEINGOLD, Wisconsin
LARRY E. CRAIG, Idaho                CHARLES E. SCHUMER, New York
SAXBY CHAMBLISS, Georgia             RICHARD J. DURBIN, Illinois
JOHN CORNYN, Texas                   JOHN EDWARDS, North Carolina
             Bruce Artim, Chief Counsel and Staff Director
      Bruce A. Cohen, Democratic Chief Counsel and Staff Director


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Cornyn, Hon. John, a U.S. Senator from the State of Texas........     1
Craig, Hon. Larry E., a U.S. Senator from the State of Idaho.....    67
Durbin, Hon. Richard J., a U.S. Senator from the State of 
  Illinois, prepared statement and attachment....................   143
Hatch, Hon. Orrin G., a U.S. Senator from the State of Utah......   156
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont.     2
    prepared statement...........................................   166
Sessions, Hon. Jeff, a U.S. Senator from the State of Alabama....    62

                               PRESENTERS

Allen, Hon. George, a U.S. Senator from the State of Virginia 
  presenting Claude A. Allen, Nominee to be Circuit Judge for the 
  Fourth Circuit.................................................    12
Durbin, Hon. Richard J., a U.S. Senator from the State of 
  Illinois presenting Mark R. Filip, Nominee to be District Judge 
  for the Northern District of Illinois..........................    15
Fitzgerald, Hon. Peter, a U.S. Senator from the State of Illinois 
  presenting Mark R. Filip, Nominee to be District Judge for the 
  Northern District of Illinois..................................    14
Warner, Hon. John, a U.S. Senator from the State of Virginia 
  presenting Claude A. Allen, Nominee to be Circuit Judge for the 
  Fourth Circuit.................................................    10

                               WITNESSES

Mikulski, Hon. Barbara, a U.S. Senator from the State of Maryland     8
Sarbanes, Hon. Paul S., a U.S. Senator from the State of Maryland     5

                       STATEMENTS OF THE NOMINEES

Allen, Claude A., Nominee to be Circuit Judge for the Fourth 
  Circuit........................................................    52
    Questionnaire................................................    70
Filip, Mark R., Nominee to be District Judge for the Northern 
  District of Illinois...........................................    17
    Questionnaire................................................    18

                         QUESTIONS AND ANSWERS

Responses of Claude A. Allen to questions submitted by Senators 
  Durbin, Kennedy, and Leahy.....................................    99

                       SUBMISSIONS FOR THE RECORD

Allen, Hon. George, a U.S. Senator from the State of Virginia, 
  prepared statement.............................................   131
Baltimore Sun, October 28, 2003, article.........................   136
Beales, Randolph A., Former Attorney General of Virginia, 
  Christian Barton, LLP, Attorneys at Law, Richmond, Virginia, 
  letter.........................................................   137
Black Women's Bar Association of Suburban Maryland, Dolores 
  Dorsainvil, Esq., President, Silver Spring, Maryland, letter...   139
Cullen, Richard, McGuire Woods LLP, Richmond, Virginia, letter...   140
Doliver, Marenann, Gilbert, Arizona, letter......................   142
Finn, Michele P., Fisherville, Kentucky, letter and attachment...   149
Gillis, Paul C., former State President, Virginia State 
  Conference NAACP, Hampton, VA, letter..........................   155
Kemp, John D., Esq., Washington, D.C., letter....................   157
Lawyers and professors of law in States within the jurisdiction 
  of the Fourth Circuit, joint letter............................   159
Leadership Conference on Civil Rights, Wade J. Henderson, 
  Executive Director, and Nancy Zirkin Deputy Director, 
  Washington, D.C., letter.......................................   163
McCallie, Thomas H., III, Maclellan Foundation, Inc., 
  Chattanooga, Tennessee, letter.................................   171
Mikulski, Hon. Barbara A., a U.S. Senator from the State of 
  Maryland, letter and news release..............................   172
Mikulski, Hon. Barbara A., and Hon. Paul S. Sarbanes, U.S. 
  Senators from the State of Maryland, joint letter and 
  attachments....................................................   176
National Association for the Advancement of Colored People, 
  Washington, D.C., resolution...................................   182
National Bar Association, Clyde E. Bailey, Sr., President, 
  Rochester, New York, letter....................................   185
National Council of Jewish Women, Marsha Atkind, National 
  President, Washington, D.C., letter............................   187
North Carolina National Association for the Advancement of 
  Colored People, Melvin Skip Alston, President, Greensboro, 
  North Carolina, letter.........................................   189
Organizations concerned with public health and welfare, joint 
  letter.........................................................   192
People for the American Way, Ralph G. Neas, President, 
  Washington, D.C., letter.......................................   196
Tetreault, Mary Ann, Newport Vermont, letter.....................   199
Women's, civil, and human rights groups, joint letter............   200

 
CONFIRMATION HEARING ON THE NOMINATION OF CLAUDE A. ALLEN, OF VIRGINIA, 
   TO BE CIRCUIT JUDGE FOR THE FOURTH CIRCUIT; AND MARK R. FILIP, OF 
  ILLINOIS, TO BE DISTRICT JUDGE FOR THE NORTHERN DISTRICT OF ILLINOIS

                              ----------                              


                       TUESDAY, OCTOBER 28, 2003

                              United States Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:43 a.m., in 
room SR-325, Russell Senate Office Building, Hon. Orrin G. 
Hatch, Chairman of the Committee, presiding.
    Present: Senators Hatch, Sessions, Craig, Cornyn, Leahy, 
Kennedy, Feingold, and Durbin.

OPENING STATEMENT OF HON. JOHN CORNYN, A U.S. SENATOR FROM THE 
                         STATE OF TEXAS

    Senator Cornyn. This hearing of the Senate Judiciary 
Committee will now come to order. Senator Hatch, the Chairman 
of the Committee, will be here shortly, but has asked me to 
convene the hearing until he is able to arrive here. And, of 
course, I will make a short statement and then turn the floor 
over to Senator Leahy, the ranking member, before we then go to 
our two distinguished colleagues from the State of Maryland.
    Today the Committee has the privilege of considering the 
nominations of two outstanding lawyers for the Federal bench. 
Claude Allen is the nominee for the U.S. Circuit Judge for the 
Fourth Circuit, and Mark R. Filip is nominee for the Northern 
District of Illinois. I commend President Bush for nominating 
each of these nominees and look forward to hearing their 
testimony.
    Now, just so everyone is aware, the Senate is scheduled to 
take a vote at 10:30. Accordingly, we will have to take a short 
break in the hearing at that time, and we will resume 
immediately following that vote.
    The first nominee from whom we will hear is Claude Allen, 
who currently serves as Deputy Secretary at the U.S. Department 
of Health and Human Services. As you know, the Fourth Circuit 
covers the States of Virginia, North Carolina, South Carolina, 
Maryland, and West Virginia. Virginia's two distinguished 
Senators, Senator Warner and Senator Allen, will be here with 
us shortly to introduce Secretary Allen, a fellow Virginian. 
Also here before us today are the two distinguished Senators 
from Maryland, Senator Sarbanes and Senator Mikulski.
    Let me explain briefly why I believe we are here in this 
posture and why we are proceeding in this manner with this 
hearing.
    On April 23, 2003, White House Counsel Alberto Gonzales 
wrote to the Senators from Virginia, North Carolina, and 
Maryland about the status of the then four vacancies on the 
Fourth Circuit. He noted that while geographic balance is not 
established in the law or binding on the President or Senate, a 
State's percentage of overall population in a circuit or the 
percentage of a circuit's caseload arising from a State within 
a circuit is generally a rough baseline for assessing the 
geographic allocation of seats within a circuit.
    Based on these rough baseline criteria, Judge Gonzales 
explained that, as of the date of his letter, of the 15 
authorized seats on the Fourth Circuit, the rough baseline 
criteria would allocate North Carolina four or five judges, 
when it, in fact, had zero judges; Virginia had three judges 
when it ought to have had four or five; and Maryland had two 
judges, roughly in line with its allocation of two or three.
    Judge Gonzales' letter went on to say that President Bush 
intended to nominate two judges to the Fourth Circuit, one each 
from the two States that remain underrepresented--North 
Carolina and Virginia. I am happy to report that the Senate 
confirmed one of these nominees, Judge Allyson Duncan from 
North Carolina, so that North Carolina's Fourth Circuit now 
stands at three, not four.
    President Bush nominated Secretary Allen to this Fourth 
Circuit judgeship on April 28, 2003, and Secretary Allen, when 
confirmed, will properly increase Virginia's representation to 
four on the Fourth Circuit, in line with its percentage of 
population and caseload within the circuit.
    So while the concerns of my colleagues from Maryland are 
honest and no doubt will be clearly articulated here today, the 
President did not act, in my opinion, improperly in nominating 
Secretary Allen. I think it would be inappropriate to hold up 
Secretary Allen's nomination any further, especially given that 
he has the full support of his home State Senators, our 
colleagues from Virginia.
    I expect we will hear more about Secretary Allen's 
qualifications from his two home State Senators, so I will not 
go into any more detail at this time about his experience in 
both State and Federal Government and his excellent academic 
credentials.
    At this time I would like to turn the floor over to the 
ranking member, Senator Leahy, for any statement he would care 
to make.

  STATEMENT OF HON. PATRICK J. LEAHY, A U.S. SENATOR FROM THE 
                        STATE OF VERMONT

    Senator Leahy. Well, thank you, Mr. Chairman.
    I am not used to having hearings in this room. I do 
appreciate the convenience insofar as my office is just a few 
feet from here.
    For over 200 years, advice and consent has helped to temper 
partisan politics in the judicial nomination process. It has 
protected the courts and the American people from single-party 
domination, and it has helped ensure that those who become 
Federal judges are fair judges who reflect mainstream legal 
thought. The result has been a Federal bench that has served us 
extraordinarily well over the course of our Republic.
    I am concerned that the history of the 108th Congress is a 
history of changed practices and broken rules. During the past 
9 months, we have seen the systemic and systematic dismantling 
of the rules that have been followed by both Democratic and 
Republican majorities to protect us all. I am afraid my friends 
on the other side of the aisle are rushing to confirm 
ideological nominees that do not reflect the mainstream values 
of the American people. To do this, they have had to discard 
many of the protections that have historically helped to ensure 
a fair judiciary.
    The Chairman has changed, for example, the blue slip policy 
so that even a negative blue slip from home State Senators is 
not enough to stop a nominee. The rule used to be, of course, 
that no judge would move out of this Committee if the Chair 
knew that the nomination was opposed by both home State 
Senators. And when this rule was used to block President 
Clinton's nominees, it was followed very stringently by the 
Republicans. It was always, always respected if the home State 
Senators said they did not want one of President Clinton's 
nominees.
    Indeed, it was extended even so that if a single Republican 
Senator from a circuit, not even from the State of the Senator, 
objected, it was sufficient to make sure there was no hearing 
and no vote.
    Now, this was the tradition followed for 6 years by my 
friends on the other side of the aisle during the Clinton 
administration. In fact, it was used so that they blocked 60 of 
President Clinton's nominees, blocked them if even one 
Republican Senator objected. Now, of course, that was dropped 
immediately when President Bush took office. So I worry that 
the rules have been changed, and I am concerned that we are not 
following the practice which has served this country very well.
    Today, we are dismantling another critical part of the 
judicial nomination process, and that is having a hearing on 
Claude Allen of Virginia. Virginia is currently represented by 
two Republican Senators, both of whom support this nominee. I 
should say at the beginning both of whom are close friends of 
mine, and both are Senators I respect greatly. I refer to them 
as my Senators away from home during those few days of the week 
that I live in Northern Virginia when we are in session. I 
respect their views. When I was Chairman of this Committee, I 
worked with them to expedite and actually move their 
recommended nominees quickly, sometimes ahead of others. Roger 
Gregory was confirmed to the U.S. Court of Appeals for the 
Fourth Circuit, Henry Hudson was confirmed to the U.S. District 
Court for the Eastern District of Virginia, and Timothy 
Stanceau to the Court of International Trade, all supported by 
Senator Warner and Senator Allen. And this year we cooperated 
in filling a second vacancy in the district courts of Virginia 
with the confirmation of Glen Conrad to the Western District. 
So we have worked very hard to make sure there are no current 
vacancies at all on the Federal courts in Virginia--none--even 
though when there had been nominees of President Clinton's held 
up for some of those vacancies.
    We worked well to fill vacancies all over the Fourth 
Circuit, not just in Virginia. Of the five circuit court 
nominees President Bush has sent to the Senate, three have been 
confirmed to date: Roger Gregory, Dennis Shedd from South 
Carolina, and Allyson Duncan from North Carolina. Now, I 
mention those three because when President Clinton nominated 
three African-Americans for that same circuit, because one 
Republican Senator objected they were never given a hearing. 
Two, Judge James Beaty and Judge James Wynn, were never even 
given a hearing. The third, Judge Andre Davis, a Marylander, 
was given the same treatment. And I was proud that we did a lot 
better for the Fourth Circuit when I was Chairman.
    Now, working with this administration has not been so 
simple for the Maryland Senators. Senator Sarbanes and Senator 
Mikulski are two of the most respected members of the Senate. 
They are known nationally for their hard work and the enormous 
respect not only the people of Maryland have for them but 
around the country. The seat for which Mr. Allen has been 
nominated is a Maryland seat. All the history shows that. It 
was last held by Judge Francis Murnaghan of Baltimore. He was a 
brilliant and compassionate jurist, and I will leave it to my 
colleagues from Maryland to say more about them.
    Now, in the year 2000, President Clinton nominated another 
Marylander, Andre Davis, an African-American district court 
judge from Baltimore, to fill Judge Murnaghan's seat. The 
Republicans, because apparently one Republican somewhere, not 
even from Maryland, objected, they did not act on the 
nomination. Actually, they claimed the Fourth Circuit did not 
need any more judges, even though there were five vacancies on 
the 15-judge circuit. Of course, as soon as President Bush was 
elected, they suddenly decided they needed those five judges.
    Now, the White House did originally recognize that Judge 
Murnaghan's seat was rightfully a Maryland seat. After the name 
of a non-Marylander was floated and rejected by the Maryland 
Senators, they then decided, well, let's switch it and do it--I 
believe they nominated somebody that wasn't even a member of 
the bar in Mary, and they switched it to a Virginia seat. So 
now we have a Virginian who works in D.C., who used to be a 
member of the staff of a Republican Senator from North 
Carolina, being nominated to fill a circuit seat from Maryland.
    I think he could not be more different than the 
predecessor. Claude Allen is a conservative political operative 
with little litigation experience. He has practiced law for a 
total of six and one-half years. That is a lot less than the 12 
years recommended as an absolute minimum by the American Bar 
Association. In fact, he is among the more than two dozen 
judicial nominees from this administration with ``not 
qualified'' or partially ``not qualified'' ratings.
    I have more I will say about him later which I will put in 
the record, but when you look at the record of people nominated 
by both Republican and Democratic Presidents for this seat, 
they have been among the most outstanding people. But to have 
somebody who has had virtually no litigation experience, 
virtually not experience practicing law, to a court one step 
below the U.S. Supreme Court to fill a Maryland seat and 
somebody who has absolutely no connection with Maryland I think 
is a bridge too far.
    I will put my whole statement in the record.
    [The prepared statement of Senator Leahy appears as a 
submission for the record.]
    Senator Cornyn. Thank you, Senator Leahy.
    Just perhaps because my statement really did not anticipate 
necessarily some of the remarks that you made, let me just 
point out for context and completeness: In a letter of July 17, 
2003, by Judge Gonzales, the White House Counsel, to Senators 
Sarbanes and Mikulski, the most recent Census Bureau 
information as of July 2002 put Maryland's population at 20 
percent of the Fourth Circuit, whereas Virginia's population 
was 27 percent. Moreover, September 2002 data from the 
Administrative Office of the U.S. Courts indicated that 
Maryland's caseload made up 16.7 percent of the circuit's 
cases, whereas Virginia's caseload was 34.8 percent of the 
circuit's cases.
    So according to the White House perspective, it is entirely 
appropriate for four or five seats to be allocated to Virginia 
and two or three seats to be allocated to Maryland.
    When President Clinton nominated, then recess-appointed 
Judge Gregory of Virginia to fill a North Carolina vacancy, he 
did not attempt to justify either action on the basis of 
objective criteria. He simply did what he believed he had the 
political muscle to do, and he did it. And the record from that 
time lacks any statements by our colleagues on the other side 
of the aisle of concern or outrage over what was obviously a 
shifting of a seat from a severely underrepresented State, 
North Carolina, to a slightly better represented State. Maybe 
even more important, despite all of these procedural concerns, 
President Bush renominated Judge Gregory. He was not 
filibustered, and he today sits on the Fourth Circuit Court of 
Appeals.
    We are holding this hearing today to get views with respect 
to this nomination. That is the purpose of the hearing. We know 
what the White House's view is. The concerns of my colleagues 
from Maryland, both of whom I respect, we all respect, no doubt 
will be clearly expressed here today as well. On the other 
hand, Secretary Allen has the full support of his home State 
Senators, our colleagues from Virginia.
    At this time we will turn to the senior Senator from 
Maryland for any comments he would care to make. Thank you, 
Senator Sarbanes, for being here with us.

  STATEMENT OF HON. PAUL S. SARBANES, A U.S. SENATOR FROM THE 
                       STATE OF MARYLAND

    Senator Sarbanes. I appreciate this opportunity to appear 
before the Committee. At the outset I want to say that the year 
I finished law school, I clerked in the Fourth Circuit for 
Judge Morris Soper. That experience has had a lasting impact 
upon me, and I regard it as one of my most serious 
responsibilities to provide the best advice I can with respect 
to nominees to sit on the Federal bench.
    Judge Soper was nominated by President Harding to be a 
Federal district judge and then nominated by President Hoover 
to go on the Fourth Circuit. He served for 40 years on the 
Federal bench. I went to be his law clerk near the end of his 
service to the Nation. He was one of the most distinguished and 
respected judges in the Federal court system, and he had a 
profound effect upon me. His portrait, in fact, sits on a table 
in my office and has been there ever since I was his law clerk.
    Judge Soper was a fierce believer in ``Equal Rights Under 
Law,'' the motto chiseled above the Supreme Court, and was a 
leader in the Fourth Circuit in seeking to implement that 
principle. The library at Morgan State University, a historic 
black college and university, is named after Judge Soper, who 
for many years was Vice Chairman of its Board of Trustees. So I 
want the Committee to understand, I come today with very deeply 
felt feelings about the importance of the Federal bench and 
about our responsibilities as Members of the United States 
Senate, with an advise and consent constitutional obligation, 
to carry out that responsibility in a way that will sustain and 
enhance the excellence and integrity of our Federal bench.
    Now, Mr. Chairman, I have distributed a memorandum of the 
Maryland judges who have served on the U.S. Court of Appeals 
for the Fourth Circuit ever since the nine judicial circuits 
were established in 1891. It is a very distinguished list, and 
I want to mention a couple of these judges just to underscore 
the quality of the people that Maryland has sent to the Fourth 
Circuit to sit on this bench. Consider, for example, Judge 
Simon Sobeloff, nominated by President Eisenhower. Judge 
Sobeloff had been the City Solicitor of Baltimore, the U.S. 
Attorney for the District of Maryland. He had been Chief Judge 
of the Maryland Court of Appeals. He had been Solicitor General 
of the United States and was nominated to go on the Fourth 
Circuit.
    I have already mentioned Judge Soper. Judge Murnaghan, the 
empty seat for which this nomination has been made, was a 
leading practitioner at the bar for many years, President of 
the Baltimore City School System, Chairman of the Charter 
Revision Commission for the City of Baltimore, and a Chairman 
of numerous civic and cultural organizations, the Walters Art 
Museum, the Baltimore Museum of Art, the Johns Hopkins 
University, on and on.
    In fact, when Judge Murnaghan was nominated, the Baltimore 
Sun in an editorial about him said, and I quote, ``Frank 
Murnaghan is acknowledged by judges and fellow lawyers alike as 
the foremost of this generation at the bar and is among the 
finest two or three lawyers Maryland has lately produced.''
    Upon his death, the Sun noted, ``Judge Murnaghan was one of 
the most admired figures in the legal establishment for his 
urbane scholarship, legal knowledge, and public spirit.'' And I 
could go through the rest of the list of these fine Maryland 
Judges.
    Again and again, Maryland has sent to the Fourth Circuit 
people of outstanding merit and outstanding quality. We have 
done well by the Fourth Circuit, and we are proud of those who 
have served on that court from our State.
    Now, we come before you today because the administration is 
seeking to shift a seat that should be a Maryland seat to 
another State. Plain and simple. Maryland has 20 percent of the 
population of this circuit. There are 15 authorized judges. 
Twenty percent of 15 is three. Right on the mark.
    Furthermore, the seat that came vacant, for which this 
nominee has been placed before you, was held by a Marylander. A 
Marylander had those three seats. And, obviously, we feel very 
keenly that Maryland should continue to have three seats on the 
Fourth Circuit. We have a great legal tradition in our State. 
Some of the outstanding lawyers going back to colonial America 
were Marylanders. And that tradition has been sustained down 
through the years.
    The Maryland State Bar wrote to President Bush after this 
nomination was made in opposition to it on the grounds that a 
Maryland lawyer should be nominated to fill this judicial 
vacancy.
    Now, we have had a back-and-forth with White House Counsel 
Gonzales, and I think it probably serves a purpose if I take 
just a moment or two to enlighten the Committee about that, 
because I think it bears on the situation we find ourselves in 
here this morning.
    When this nomination was made, we wrote to Counsel 
Gonzales, and we also sent a copy to Chairman Hatch and Senator 
Leahy. And we noted that in making this nomination, the 
administration was shifting a seat that has been traditionally 
allocated to Maryland to Virginia, that this ran directly 
counter to the principles for the allocation of seats that 
Counsel Gonzales had enunciated in a recent memorandum. In 
fact, the administration claimed that it would seek 
geographical balance so that the State has a number of judges 
sitting in that State corresponding to the State's percentage 
of the overall population of the circuit, and they pointed out 
that in the Fourth Circuit we were significantly out of 
balance. And he indicated that President Bush intended to 
nominate individuals to Fourth Circuit vacancies in a manner 
that will bring the circuit closer to geographic balance.
    Traditionally, the standard has been population. Now they 
are trying to introduce the standard of the number of appeals 
that come up from the State. I don't understand that standard. 
It, in effect, says if there is more reason to think there are 
mistakes on the part of the Federal district bench so more 
appeals are taken, or if you have a more litigious bar--
something I know this Committee has some concern about--that, 
therefore, you ought to get more judges on the appeals court. 
If one starts thinking about it, I think there are serious 
flaws in that criteria.
    In any event, the traditional criteria has been population. 
On that criteria, Maryland would have three seats. The vacancy 
that exists here was held by a Marylander. The appointment of a 
Marylander would keep us at three.
    Now, one final point which underscores the seriousness of 
this. We have tried to work with the administration on their 
nominees to the Federal bench. We have had some success. 
Senator Mikulski and I have appeared before you to speak in 
favor and endorse all three of the nominees that President Bush 
has made to the Federal district court in Maryland: William 
Quarles, Richard Bennett, and Roger Titus. This Committee 
reported all three out unanimously. Two were confirmed by the 
Senate and are now sitting, and the third is pending on the 
Senate calendar, and we expect his confirmation in the near 
future. So we have shown, I think, an ability to work with the 
administration to try to move the process forward and place 
people on the Federal bench.
    We encountered a difficulty on the Fourth Circuit. The 
administration at one point approached us and wanted to 
nominate ``for the Maryland seat'' someone who was not even a 
member of the Maryland Bar--38 years old, very bright, but not 
the sort of stature, both professionally and in the community, 
that I think is a prerequisite to go on the Federal bench. And 
these names we have put before you, if you look through them 
and what they have done, clearly demonstrate that we have 
succeeded time after time in drawing to the Federal bench men 
and women of stature, men and women of seasoned experience, men 
and women who have handled important, responsible positions in 
public life.
    We want to maintain that standard and that tradition, and 
we do not think that the White House Counsel, when they 
encounter resistance to someone they want to place on the bench 
who falls short of that standard, should then take the seat and 
move it to some other State. And we intend, I certainly intend, 
to oppose this effort with all the strength that I can muster. 
And I urge the Committee not to allow this gross departure from 
practice to take effect.
    Thank you very much.
    Senator Cornyn. Thank you, Senator Sarbanes.
    Senator Mikulski, we will be pleased to hear from you next.

  STATEMENT OF HON. BARBARA MIKULSKI, A U.S. SENATOR FROM THE 
                       STATE OF MARYLAND

    Senator Mikulski. Good morning, Mr. Chairman and members of 
the Committee. I want to thank the Committee for the 
opportunity to testify today on the nomination of Mr. Claude 
Allen. I will not repeat the arguments made by Senator 
Sarbanes, but to really though affirm the need to advocate very 
strongly that this seat should be a Maryland seat.
    We feel that an injustice has been done to the State of 
Maryland in selecting a Virginian to occupy a Maryland seat on 
the Fourth Circuit Court of Appeals. So I am here today to 
oppose the nomination of Mr. Claude Allen. This is a Maryland 
seat, and a Maryland lawyer should be nominated for it. I have 
very serious concerns about Mr. Claude Allen's qualifications 
to represent Maryland. Mr. Allen does not and cannot adequately 
represent Marylanders.
    This injustice hurt Maryland's representation on the Court 
of Appeals. Thousands of cases are going to be decided by this 
court, cases that affect the very lives of every Marylander. 
They impact Maryland business, Maryland education, workers' 
rights, our Bay, our environment. Our Federal Court of Appeals 
are so often the court of last resort. If Maryland loses this 
seat, they lose a voice.
    Mr. Allen's nomination penalizes by taking one of its three 
seats away. There is no justification for taking this seat, 
especially when balance dictates that the State with 20 percent 
of the population should have 20 percent of the seats. That is 
common sense. That is fairness. That means three of the 15 
judges.
    This particular Maryland seat is no ordinary seat. It was 
occupied Judge Francis Murnaghan since its creation in 1979. 
Our Senate tradition is for a vacancy to be filled by a person 
of the same State. The Murnaghan seat brings with it an 
incredible legacy of distinguished scholarship and legal 
experience to that seat. The Clinton White House recognized it 
as a Maryland seat when they nominated Judge Andre Davis, a 
distinguished lawyer who clerked for Judge Murnaghan. The Bush 
administration recognized it as a Maryland seat when they sent 
us two previous candidates, but they had little or no 
connection to Maryland. One was not even a member of the 
Maryland Bar. In both cases Senator Sarbanes and I had to 
object to such an important position going to someone with 
little or no ties to Maryland including not even being a member 
of the Maryland Bar.
    Now we feel that the administration is playing bait and 
switch, trying to switch the seat to Virginia because Senator 
Sarbanes and I have raised concerns about the people that 
President Bush has tried to nominate for this seat. The 
administration claims that it needs to move the seat to 
geographically balance the Court of Appeals. That is unfounded. 
It is not Maryland's representation that needs adjustment. If 
the administration truly wants geographical balance they would 
look for opportunities to ensure that Maryland, which is 
possibly the only State in balance on the Fourth Circuit, stays 
in balance. They should nominate a Maryland lawyer because we 
are entitled to fair and balanced representation. If Mr. Allen 
were confirmed, then Virginia could have five seats, dwarfing 
the representation of Maryland, which has the third largest 
population in the Fourth Circuit, and push us down to two 
seats.
    I would like to bring to the Committee's attention that the 
Maryland Bar opposes the Allen nomination on the grounds that I 
have stated. There are 30,000 practicing lawyers in our home 
State of Maryland. It is unacceptable that this administration 
could not find one well-qualified lawyer to appoint to this 
prestigious court. They found three well-qualified lawyers for 
the District Court, Judge Quarles, Judge Bennett, and hopefully 
soon, Judge Titus, all exceptional nominees who represent the 
type of nominees the administration could have chosen to fill 
the Murnaghan seat. Any one of those nominees has more legal 
experience than the current nominee before you. Why did the 
administration not look to one of those?
    We understand that the administration has consulted, 
because of the significant Democratic representation in 
Congress, we understand the administration has consulted with 
Governor Ehrlich on the three District Court nominations. We 
have no objection to that, and in fact, Governor Ehrlich and 
his adviser, Mr. Jervis Finney, an outstanding lawyer, a rock-
rib Republican, a former U.S. Attorney, is the advisor to 
Governor Ehrlich on these matters. That is how we got Quarles, 
Bennett and Titus. We have the people. Why not give us the 
opportunity? Because we believe that we could support this.
    Our opposition here is not based on party. It is based on 
representing our State and seeing that our State is represented 
on the Court of Appeals. I repeat, this is not about party. We 
have voted for Republican nominations at the District Court, at 
the Fourth Circuit. I voted for Judge Niemyer, an outstanding 
member of the Fourth Circuit. When I voted for Judge Diana 
Mott, I was not even sure what her political party affiliation 
was. We go for the best, but when we go for the best, we go for 
a Marylander, and this is why we are so adamant today.
    When I review the nominees for Federal courts, I consider 
legal competency, the highest integrity, a dedication to 
protecting core constitutional values, and in this case being 
from my own State.
    What causes me concern about this nomination is other 
qualifications about this nominee. I will not go into my 
flashing yellow lights about other qualifications to this 
nominee. Suffice to say that these are raised in the Sun paper 
editorial today, and I ask unanimous consent that this be 
placed into the record.
    Senator Cornyn. Without objection.
    Senator Mikulski. But dear Committee members, I really urge 
you to request that the administration withdraw the nomination 
of Mr. Allen. He is here today with his family. They seem like 
a wonderful family. I believe there are other places in this 
administration that Mr. Allen could serve his President and 
serve the Nation. I ask the withdrawal of this nomination 
before the Committee, or then to oppose it.
    Senator Cornyn. I would like to thank both of our 
colleagues from Maryland for forcefully stating their views on 
this difficult subject. We are also honored to have the two 
Senators from the Commonwealth of Virginia here, who perhaps 
have a different perspective on this.
    I would like to at this time recognize the senior Senator, 
Senator Warner.

 PRESENTATION OF CLAUDE A. ALLEN, NOMINEE TO BE CIRCUIT JUDGE 
  FOR THE FOURTH CIRCUIT, BY HON. JOHN WARNER, A U.S. SENATOR 
                   FROM THE STATE OF VIRGINIA

    Senator Warner. Members of the Committee, first may I say 
to my two distinguished colleagues that we have served here a 
long time together, and you fully recognize that there are 
really two boxing rings. The Executive Branch is where this 
decision was made with respect to the nomination, and I would 
hope that you would take the same vigor and ardor that both of 
you have expressed here and box it out there. Do not bring it 
to the boxing ring in the Senate where the match is over purely 
this man's qualifications, not the allocation between the 
several States for the seats on a Circuit, whether it is the 
Fourth Circuit or wherever it may be. It seems to me that this 
great Nation was set up with three coequal branches of the 
Government. The Executive Branch made this decision to send 
this nominee here, not the Senate. Now it is up to us to 
examine him purely on the basis of his qualification and give 
him a fair chance to be judged by the full Senate. So I say 
that most respectfully.
    Senator Mikulski. Would the Senator yield for a minute?
    Senator Warner. Certainly.
    Senator Mikulski. Senator, we understand that there are 
several boxing weights or boxing areas. We have tried to work 
with the administration. We have stated this case forcibly to 
them. We have asked them to consult with the Maryland Bar. We 
have asked them to follow the same process that gave us Judges 
Bennett and Quarles and hopefully Titus.
    Senator Warner. I do not question that you fought a strong 
battle there, but my point is you lost, and now we are in 
another arena, and this gentleman should be judge purely on the 
basis of his potential and the suitability to take on a 
judicial position.
    Senator Sarbanes. We do not intend to lose in this arena.
    Senator Warner. I do not doubt that you can place 
obstacles. Is it a sense of fairness to an individual person 
though? That is my concern.
    Senator Sarbanes. We have a deep concern about a sense of 
fairness to the State of Maryland and to the legal profession 
in our State, and in holding White House counsel to his own 
criteria. His own criteria was that he was going to try to seek 
greater geographical balance in the Fourth Circuit, and he is 
violating that in the most flagrant way. The administration has 
not only reduced Maryland's representation, but of course, 
Virginia has now gotten a fifth nominee to the Fourth Circuit, 
so significantly raising Virginia's seats. I like Virginia and 
I have had a wonderful working relationship with the Senator 
from Virginia, and I want to underscore that. Over the years 
there is no question about that, and we seek to have mutual 
respect, but we think that the White House has very badly 
treated our State.
    Senator Warner. Do what you can with respect to the White 
House but not to this innocent individual who comes up here 
with a distinguished record to offer himself for further public 
service. The whole procedure about the judicial nominations, I 
think all of us are of the opinion that somehow we have got to 
improve it, because we have to think about the human dignity of 
the people who are willing to come forward, whether it is a 
Republican nominee from a Republican President or a future 
nominee from another President.
    You fight this out in the Executive Branch, the allocation 
among the several circuits of the seats. I will not take 
further time. I will try and deliver my statement here, and ask 
that the entire statement be put into the record.
    Senator Cornyn. Without objection.
    Senator Warner. This is a fine individual. I have known him 
for some time. The interesting thing is he has served all three 
branches, speaking of branches, of the Federal Government, and 
held key positions in Virginia State Government as well, 
eminently qualified. His first experience with the Federal 
Government came with the Legislative Branch. After he graduated 
with a B.A. in political science from the University of North 
Carolina, he worked on the United States Foreign Relations 
Committee right here in the U.S. Senate, as deputy director of 
the Minority Staff and as Press Secretary. After leaving the 
Senate he went on to earn a law degree from Duke University. 
Upon graduation he was a law clerk for Hon. David Sentelle of 
the United States Circuit Court of Appeals for the District of 
Columbia. I might add that this humble Senator likewise was a 
law clerk on that Court before this gentleman was born, but I 
know the Court very well.
    Subsequent to completing his Federal clerkship, Mr. Allen 
practiced law for 4 years with the firm of Baker and Botts, an 
internationally known firm. In 1995 he departed and went into 
the Attorney General's Office in the Commonwealth of Virginia 
and was promoted to the Deputy Attorney General. I say that, 
Mr. Sessions, you are familiar with that office, and to rise to 
the post of deputy you have to have some sound credentials. 
Then in 1998 he was selected by our Governor to serve as the 
Secretary of Health and Human Resouces in the Commonwealth of 
Virginia.
    Secretary Allen served as Virginia's Secretary of Health 
and Human Resources until 2001 when he was nominated by 
President Bush to serve as Deputy Secretary of Health in the 
U.S. Department of Health and Human Services. The Senate 
confirmed, I repeat, confirmed this eminent American for 
Secretary by voice vote on May 26, 2001.
    It is important to note that this was not the first time 
Secretary Allen had received Senate confirmation. Earlier he 
was nominated by President Clinton and confirmed by the Senate 
for a position on the African Development Foundation. Twice the 
Senate has rendered advice and consent favorably.
    So I suggest, most respectfully to my colleagues, to my 
good friends of Maryland, let us judge him on his merits and go 
into the arena of the Executive Branch if we wish to slug out 
the number of seats on the various circuits.
    I thank my colleagues.
    [The prepared statement of Senator Warner appears as a 
submission for the record.]
    Senator Cornyn. Thank you, Senator Warner.
    Senator Allen, we would be pleased to hear from you.

 PRESENTATION OF CLAUDE A. ALLEN, NOMINEE TO BE CIRCUIT JUDGE 
 FOR THE FOURTH CIRCUIT, BY HON. GEORGE ALLEN, A U.S. SENATOR 
                   FROM THE STATE OF VIRGINIA

    Senator Allen. Thank you, Mr. Chairman. I am very pleased 
to join with my colleague, Senator Warner, in support of Claude 
Allen to this position on the Fourth Circuit Court of Appeals.
    Since I am going second with my introduction Senator Warner 
has already covered some of the remarks I wished to make. I 
will not tread on them again, and will ask that my full 
statement be made part of the record.
    Senator Cornyn. Without objection.
    Senator Allen. Let me share with you all on the Committee 
my views. I will not get into a running debate other than to 
say I was listening to my colleagues from Maryland, and in 
issues like the Chesapeake Bay and the laws of the Fourth 
Circuit, federal laws apply in Virginia as well as Maryland. 
Virginia cares a great deal about the Chesapeake Bay, and it is 
actually one of the great partnerships with Virginia and 
Maryland in trying to upgrade the aquatic quality of the 
Chesapeake Bay.
    But on the criteria of competence integrity, and the proper 
judicial philosophy, I find that Claude Allen, from my 
experiences working with him, is eminently qualified to serve 
in this position on the Fourth Circuit Court of Appeals. As 
Senator Warner said, he has served in every branch of 
Government, including various Executive Branch positions.
    Let me share with you my views when I was serving as 
Governor of the Commonwealth of Virginia. As you know, Mr. 
Chairman, being Attorney General, and Senator Sessions, having 
served in a similar position, states are constantly getting 
challenged on a variety of areas from people who do not like 
the changes you are making. I was very honored and fortunate as 
Governor to have Claude Allen serving most capably in a 
position of leadership as Deputy Attorney General. In that 
position, he was specifically working with members of my 
Cabinet, namely the Secretary of Health and Human Resources. In 
this position, he was vitally instrumental in warding off a lot 
of lawsuits and challenges in the implementation of Virginia's 
very ambitious and comprehensive welfare reform law. We passed 
it in 1995, well over a year and a half before the Federal law 
was passed, and there were challenges in a variety of Federal 
Courts. Fortunately we had Claude Allen, not just as a leader 
in the Attorney General's office, but as a leader making sure 
that our laws, which have been very successful over the years, 
were kept in place. Obviously these laws reflect the will of 
the people of Virginia. This gets also to my philosophy that 
judges ought to be interpreting and administering the law, not 
inventing or writing the law.
    After that great work and leadership as Deputy Attorney 
General, then Governor Gilmore, my successor, came in and 
appointed him to be in his Cabinet as Secretary of Health and 
Human Resources. In this position, he continued the 
implementation of welfare reform as well as many other aspects 
of Virginia Government. The Secretary of Health and Human 
Resources in Virginia has very diverse responsibilities and is 
in charge of 13 agencies and 15,000 employees. Claude Allen 
showed great management in this position, and therefore, 
President Bush ultimately, when he came into office, wanted to 
bring him to the Federal level.
    Another matter arose toward the end of my term as Governor 
of Virginia. There was a despicable and deplorable rash of 
church burnings focused on African-American churches. These 
were truly deplorable actions. During this time, Claude Allen 
worked with former Virginia Governor, Doug Wilder, to bring 
about a dialogue in our Commonwealth of Virginia to combat 
these hateful acts.
    As Senator Warner mentioned, Claude Allen has been 
confirmed twice by the Senate, one nomination under President 
Clinton when served on the Board of Directors for the African 
Development Foundation. In that role he worked on various 
issues including the development of micro businesses for women 
in Africa, the care for orphans affected by HIV/AIDS, and 
adding an economic focus on the HIV crisis in Africa. He was, 
as Senator Warner mentioned, alos confirmed in May 2001 as 
Deputy Secretary for Health and Human Services, a position he 
currently holds.
    Claude Allen has worked on issues dealing with health 
disparities in minority communities as well as the issues of 
bioterrorism, homelessness and HIV/AIDS, both in our Nation and 
abroad. He has, in my view, an outstanding record of commitment 
to positive youth development in our Commonwealth of Virginia, 
as well as across the Nation. He has been active in Virginia's 
Right Choices for Youth Program, which promotes healthy 
behaviors among young people in an effort to have them live up 
to their fullest potential.
    He does have with him family members, and I would like for 
you all to recognize his family members who are here with him 
today. His wife, Jan; his son Alexander, who is 11-years-old; 
Mildred, Secretary Allen's sister; Tom, his brother-in-law who 
is Mildred's husband; Karla Ballard, his niece; and Carolyn 
Ballard, his sister-in-law. Also here is a good friend and a 
supporter of Claude Allen, a man who has his own independent 
way of looking at matters, and that is Paul Gillis, who is a 
former State President of the Virginia State Conference of the 
NAACP.
    Mr. Chairman, members of the Committee, Secretary Allen is 
an outstanding nominee. I am confident that he will honorably 
and fairly adjudicate cases on appeal to the Fourth Circuit. 
Members of this Committee, it is my sincere pleasure to present 
and to support this well-qualified nominee and outstanding 
person. He is a true Virginian. We are proud of that as well. I 
respectfully request you all to move as expeditiously as 
possible in bringing his nomination to the floor for a vote.
    I thank you, Mr. Chairman, and all the members of the 
Committee.
    [The prepared statement of Senator Allen appears as a 
submission for the record.]
    Senator Cornyn. Thank you very much, Senator Allen. I would 
like to express our appreciation on behalf of the Committee to 
all our colleagues from Maryland Virginia for your 
introduction.
    To remind the Committee, we have a vote posted at 10:30 on 
the confirmation of Governor Leavitt to be Administrator of the 
EPA, and my hope is that we can go ahead and ask Senator Durbin 
and Senator Fitzgerald to make any introductory comments they 
would care to make on the third panel member, Mark R. Filip, to 
be the U.S. District Judge for the Northern District of 
Illinois, so that when we come back we can proceed first with 
Mr. Allen and then with Mr. Filip.
    Senator Durbin.
    Senator Durbin. Mr. Chairman, if you would not mind, I 
would like to ask my colleague, Senator Fitzgerald to go first 
since he nominated Mr. Filip, a nomination I totally support, 
but I would like him to introduce him.
    Senator Cornyn. Very well. Senator Fitzgerald, we would be 
delighted to hear from you.

  PRESENTATION OF MARK R. FILIP, TO BE DISTRICT JUDGE FOR THE 
NORTHERN DISTRICT OF ILLINOIS, BY HON. PETER FITZGERALD, A U.S. 
               SENATOR FROM THE STATE OF ILLINOIS

    Senator Fitzgerald. Thank you, Mr. Chairman, and members of 
the Committee. I appreciate the opportunity to be here today 
and introduce to the Committee a very fine, young, but already 
very experienced and sharp lawyer from Chicago named Mark R. 
Filip.
    Mark is current a partner at Skadden Arps, specializing in 
complex commercial litigation in Chicago. He also does some 
criminal defense work. He is a graduate of the Harvard Law 
School, magna cum laude, and he also served on the Harvard Law 
Review. Before going to Harvard he had a scholarship, a 
Marshall Scholarship to study law at Oxford University. He has 
had two judicial clerkships. He clerked for Stephen F. Williams 
of the D.C. Circuit, and then clerked for Supreme Court Justice 
Antonin Scalia.
    Before going to Skadden Arps he was an Assistant U.S. 
Attorney in the Northern District of Illinois, and while he was 
an Assistant U.S. Attorney he won the Justice Department's 
award for superior performance as an Assistant U.S. Attorney.
    He is currently involved teaching at the University of 
Chicago Law School. He is currently lecturing there, and 
previously he was an adjunct professor at Northwestern School 
of Law. The American Bar Association has rated Mark Filip 
``well qualified.''
    I have to say that I appreciate Senator Durbin's support 
for the nominee. I know that Senator Durbin interviewed Mr. 
Filip for a long time and had a good meeting with him.
    We are pleased to have Mark Filip here today, and Mark just 
nodded his head. He is sitting between his parents who have 
made it all the way from Park Ridge, Illinois, Rose and Robert 
Filip. If you want to stand up and just be recognized. Thank 
you.
    I understand that Mark's wife, Beth, along with her parents 
are on their way from Chicago, and they will be in town a 
little bit later today. They have four boys, Matthew, Charlie, 
Tommy and Joseph, and I guess they are growing up like my son 
is, and the way I grew up and the way Mark grew up, very 
disappointed Chicago Cubs fans.
    [Laughter.]
    Senator Fitzgerald. They had a great disappointment the 
other day when the Cubs failed to make it into the World 
Series.
    Mr. Chairman, I appreciate their being here. I appreciate 
your attention. Mark is a superior lawyer who has already made 
a significant mark in the legal community in Chicago and really 
around the Nation, and I expect that he will provide 
distinguished service to the Northern District of Illinois.
    Again, I would like to thank my colleague, Senator Durbin.
    With your consent, Mr. Chairman, I would like to be able to 
introduce a full statement of my remarks into the record.
    Senator Cornyn. Certainly, without objection.
    Senator Fitzgerald. Thank you.
    [The prepared statement of Senator Fitzgerald appears as a 
submission for the record.]
    Senator Cornyn. Thank you very much, Senator Fitzgerald.
    Senator Durbin, would you care to make any remarks at this 
time?
    Senator Durbin. Very briefly.

PRESENTATION OF MARK R. FILIP, NOMINEE TO BE DISTRICT JUDGE FOR 
THE NORTHERN DISTRICT OF ILLINOIS, BY HON. RICHARD J. DURBIN, A 
            U.S. SENATOR FROM THE STATE OF ILLINOIS

    Senator Durbin. Thank you, Chairman Cornyn, and I want to 
thank my colleague, Senator Fitzgerald.
    I think what we have been able to achieve in Illinois 
despite our obvious political differences may be a benchmark or 
guide for some other States. We really have come up with 
bipartisan nominees. We have a process where the Senator from 
the President's party appoints three, and then the other 
Senator appoints the fourth, and we have not run into any 
difficulties with this all the way through, and we have I think 
come up with some outstanding nominees who have not had any 
problem once they have arrived in the Senate. Circuit level, 
District Court Level. It can be done, ladies and gentlemen, 
despite all of the things that you hear to the contrary. And 
Mark Filip is a good illustration of how it can be done. I 
commend Senator Fitzgerald for nominating him.
    I had a chance to meet with Mark in my office in Chicago. 
We sat down and talked about his background. I was nervous 
about some of his background and wondered is this person going 
to be moderate, centrist and the like, and I came away with a 
very positive impression.
    Mr. Chairman, I think one of the most important things that 
I read was from an attorney who had been a defense counsel when 
Mark was a prosecutor, and we asked him what he thought about 
Mark Filip as a judge. He said as follows: ``One of the 
fairest, most even-keeled, thoughtful prosecutors I've gone up 
against. Would make a wonderful judge because he understands 
the human condition and the principle that everyone deserves 
their day in court. Could you ask for more?''
    I think that is the kind of fitting testimony from the 
other side in a case from a counsel who really understands that 
you can be fair and balanced, and Mark Filip has been.
    I only found one question mark in his entire background, 
and it was a Law Review article that he had written back in law 
school in his callow youth relative to legislative history and 
how it was to be used, and we talked about it at length and 
Mark Filip sent me a letter explaining his thoughts on that 
issue. I would like to ask unanimous consent, Mr. Chairman, if 
that letter that Mr. Filip sent me might be made part of this 
permanent record.
    Senator Cornyn. Certainly, without objection.
    Senator Durbin. I stand in full support of his nomination, 
and he is going to be a great District Court Judge. Thank you.
    [The prepared statement of Senator Durbin appears as a 
submission for the record.]
    Senator Cornyn. Thank you very much, Senator Durbin, and I 
would like to congratulate you and Senator Fitzgerald for 
working together, and hopefully we can see more of that happen 
in the future, but we know that these nominations are sometimes 
contentious, but we can always hope.
    We have a vote posted on the confirmation of Governor 
Leavitt for Administrator of the Environmental Protection 
Agency, so we are going to recess briefly so we can go vote, 
and we will come immediately back here. Senator Hatch, Chairman 
of the Committee, will then take the helm at that time.
    Senator Leahy. Mr. Chairman?
    Senator Cornyn. Senator Leahy.
    Senator Leahy. Mr. Chairman, before we leave I should note, 
so there is no confusion, the Roger Gregory seat, that was one 
of the unallocated seats and it did go to Virginia. It was 
after President Clinton had tried for years to nominate people 
from North Carolina, and one Senator objected so they did not 
get hearings. He then nominated Roger Gregory for the 
unallocated seat, and he was strongly supported by both Senator 
Allen and Senator Warner.
    Senator Cornyn. Thank you, Senator Leahy.
    We will stand in recess temporarily until after the vote, 
and Senator Hatch will then bring us back into session.
    [Recess 10:40 a.m. to 11:17 a.m.]
    Chairman Hatch. As I understand it, we may be able to 
resolve the Filip matter in a short period of time, so why do 
we not do that?
    Do either of you have any questions for Mr. Filip? Mr. 
Filip, why do you not take the chair and let us--anybody have 
any questions?
    Senator Durbin. Mr. Chairman, I know that you were detained 
with other Committee hearings, but Senator Fitzgerald and I 
have both expressed our strong support of this nominee. He has 
an extraordinary background. One of the things we were hoping, 
that his wife and father-in-law would be able to join the rest 
of his family here at this moment for the hearing. I thank you, 
Mr. Chairman, for allowing him to be considered at this moment. 
I do not know if he would like to introduce his family and 
perhaps make a short statement, but that would be appropriate I 
think at this moment.

 STATEMENT OF MARK R. FILIP, NOMINEE TO BE DISTRICT JUDGE FOR 
               THE NORTHERN DISTRICT OF ILLINOIS

    Mr. Filip. Thank you very much, Senator, and thank you, Mr. 
Chairman. It is my great honor and pleasure to appear before 
you this morning, and I want to thank Senator Fitzgerald for 
initially recommending me, and the President for nominating me, 
and in particular thank both Senator Fitzgerald and Senator 
Durbin for the courtesy and thorough job that they did in 
evaluating my background, and the great sense of fairness that 
they showed toward me, and I am very grateful.
    I would like to also introduce if I might, please, my 
family. First my wife Beth.
    Chairman Hatch. Happy to have you here.
    Mr. Filip. Who I had the good fortune to meet when we were 
both back in college age, and it has definitely been the best 
thing that has ever happened to me, and has been a great 
partner in--for my in my life, and has done a wonderful job 
with our four sons.
    I would like to also, please, introduce my mother and 
father, Rose Filip and Bob Filip.
    Chairman Hatch. We are delighted to have you here. You have 
to be very proud of your son.
    Mr. Filip. And also my father-in-law, Terry Moritz.
    Chairman Hatch. We are glad to have you here as well.
    Mr. Filip. We are very blessed all four grandparents living 
right in the area where we live, and our kids spend an awful 
lot of time with each of them, and it is really a great fortune 
for them and for everyone.
    So thank you all very much. I'm happy to answer any 
questions if there are any, and if not, I am very, very 
grateful for all the kindness and courtesy everyone has shown 
all of us.
    [The biographical information of Mr. Filip follows:]

    [GRAPHIC] [TIFF OMITTED] T4083.001
    
    [GRAPHIC] [TIFF OMITTED] T4083.002
    
    [GRAPHIC] [TIFF OMITTED] T4083.003
    
    [GRAPHIC] [TIFF OMITTED] T4083.004
    
    [GRAPHIC] [TIFF OMITTED] T4083.005
    
    [GRAPHIC] [TIFF OMITTED] T4083.006
    
    [GRAPHIC] [TIFF OMITTED] T4083.007
    
    [GRAPHIC] [TIFF OMITTED] T4083.008
    
    [GRAPHIC] [TIFF OMITTED] T4083.009
    
    [GRAPHIC] [TIFF OMITTED] T4083.010
    
    [GRAPHIC] [TIFF OMITTED] T4083.011
    
    [GRAPHIC] [TIFF OMITTED] T4083.012
    
    [GRAPHIC] [TIFF OMITTED] T4083.013
    
    [GRAPHIC] [TIFF OMITTED] T4083.014
    
    [GRAPHIC] [TIFF OMITTED] T4083.015
    
    [GRAPHIC] [TIFF OMITTED] T4083.016
    
    [GRAPHIC] [TIFF OMITTED] T4083.017
    
    [GRAPHIC] [TIFF OMITTED] T4083.018
    
    [GRAPHIC] [TIFF OMITTED] T4083.019
    
    [GRAPHIC] [TIFF OMITTED] T4083.020
    
    [GRAPHIC] [TIFF OMITTED] T4083.021
    
    [GRAPHIC] [TIFF OMITTED] T4083.022
    
    [GRAPHIC] [TIFF OMITTED] T4083.023
    
    [GRAPHIC] [TIFF OMITTED] T4083.024
    
    [GRAPHIC] [TIFF OMITTED] T4083.025
    
    [GRAPHIC] [TIFF OMITTED] T4083.026
    
    [GRAPHIC] [TIFF OMITTED] T4083.027
    
    [GRAPHIC] [TIFF OMITTED] T4083.028
    
    [GRAPHIC] [TIFF OMITTED] T4083.029
    
    [GRAPHIC] [TIFF OMITTED] T4083.030
    
    [GRAPHIC] [TIFF OMITTED] T4083.031
    
    [GRAPHIC] [TIFF OMITTED] T4083.032
    
    [GRAPHIC] [TIFF OMITTED] T4083.033
    
    [GRAPHIC] [TIFF OMITTED] T4083.034
    
    Chairman Hatch. I know quite a bit about you, Mr. Filip, 
and I have no questions.
    Does anybody have any questions?
    Senator Durbin. Mr. Chairman, I was fortunate enough to 
have a lengthy conversation with Mr. Filip in my office. We had 
gone through a number of questions, and I am totally satisfied 
he is going to be an excellent Federal judge, and I support his 
nomination.
    Chairman Hatch. Well, that is an excellent tribute to you, 
Mr. Filip. So with that, we will excuse you and your family, 
and we will put you on the next markup we can get you on, and 
hopefully we will put you out and get you confirmed before the 
end of this year. I am sure with the help of both of your 
Senators we will have a good opportunity to do that.
    Mr. Filip. Thank you, sir, very much.
    Chairman Hatch. Thank you all for being here. Glad to meet 
all of you.
    Mr. Allen, we will put you in the chair. I apologize for 
not being able to be here right at the beginning because I had 
my Governor Leavitt up for the EPA Administrator on the floor, 
and I had to make a set of remarks and also watch the final 
remarks of others today. So I apologize to you.
    I have known you for a long time, think a great deal of 
you.
    We will turn to Senator Feingold.
    Senator Feingold. Thank you. Congratulations on your 
appointment.
    Mr. Allen. Thank you, Senator.
    Senator Feingold. Mr. Allen, you have been quite involved 
in setting our Government--
    Chairman Hatch. Excuse me, Senator. We need to swear Mr. 
Allen in.
    Do you solemnly swear to tell the truth, the whole truth 
and nothing but the truth, so help you God?

 STATEMENT OF CLAUDE A. ALLEN, NOMINEE TO BE CIRCUIT JUDGE FOR 
                       THE FOURTH CIRCUIT

    Mr. Allen. I do.
    Chairman Hatch. Go ahead.
    Senator Feingold. Mr. Allen, you have been quite involved 
in setting our Government's HIV/AIDS policy, as I understand 
it. Is that right?
    Mr. Allen. That is correct, Senator.
    Senator Feingold. In January of this year you were quoted 
in a story on National Public Radio saying the following about 
Uganda, a country in sub-Saharan Africa that has been, as we 
all know, hit very hard by this terrible disease. You said, 
quote, ``It's the only country in Africa that has had a 
positive increase in its life expectancy, and that's because 
they focused on young people remaining abstinent until they 
were married. And that in itself translated into a reduce 
infection rate that allowed that country to have its HIV rate 
drop dramatically over the course of 5 or 6 years.'' End of 
quote.
    I certainly agree that there is a lot to be learned from 
the Ugandan example, but I also want to quote you something 
that Sophia Mukasa Monico, a leading Ugandan AIDS activist, 
formerly of TASO, the ground-breaking AIDS support 
organization, what she told me at a Foreign Relations Committee 
hearing in May. She said, quote, ``As a Ugandan I am deeply 
concerned when I hear people taking a single element of our 
successful national program like abstinence out of context and 
ascribe all achievements to that one element. All three 
elements must be implemented together for prevention to work,'' 
unquote.
    By all three we obviously know she was talking about the 
ABCs of AIDS prevention: abstinence, being faithful to one 
partner, and using a condom. In fact, she went on to talk about 
elements of Ugandan effort even beyond the ABCs, such as 
empowering girls and women in Ugandan society as additional 
important elements of a program to prevent the spread of HIV/
AIDS.
    So let me ask you this: why did you suggest that only one 
intervention, abstinence until marriage programs for youth, was 
responsible for Uganda's prevention success? And do you agree 
that if the government's focus is solely on abstinence it would 
be less effective in preventing HIV/AIDS than if it implements 
a more comprehensive prevention strategy that includes but is 
not limited to abstinence?
    Mr. Allen. Senator, thank you for your interest in the area 
of HIV/AIDS. It is something that I have spent much of my 
career focusing on, and specifically the efforts in Uganda.
    Sir, I believe that the NPR interview you're referring to, 
I have always mentioned in my discussions of Uganda their 
complete model, which includes A, B and C, the A clearly 
focusing on abstinence for young people, which has actually 
reduced their HIV infection rate among young women by more than 
50 percent. I focus on the B, which means being faithful to 
one's companions, one's relationships, and that also has 
produced in Uganda a very unique situation, in fact showing the 
HIV infection rate reduced among men because it reduced their 
partners. And also the importance of the C, sir, and the C 
being the use of condoms for the prevention of HIV/AIDS, 
recognizing that they're highly effective in preventing the 
transmission of HIV, but must less effective in terms of 
preventing the transmission of other sexually-transmitted 
diseases.
    I sort of stick with what President Museveni and First Lady 
Museveni have always talked about in terms of the Ugandan 
experience, and it is one that is comprehensive. It is one that 
recognizes the importance of using traditional and important 
cultural aspects of society to address the growing need, and 
try to stem the tide of HIV in Africa and elsewhere.
    Senator Feingold. I appreciate your recognition of all 
these elements, and so let me just continue. One of the 
concerns about this issue is whether there would be an attempt 
by some to manipulate or politicize the issue, and I think we 
would all agree, given how awful this epidemic is, the stakes 
are too high to let that happen. So I am concerned about your 
comments on this subject that could appear to misrepresent the 
facts, and I want to ask you about another quote.
    You testified at a House hearing in March on the 
administration's AIDS' policy in Africa as follows. Quote: ``I 
know you'll be hearing later this morning about Uganda and 
their successful use of the ABC program of prevention. The A is 
for abstinence for young people. The B is for being faithful in 
mutually monogamous relationships, and the C is for condom use 
in high-risk populations with the knowledge that condoms are 
highly effective in preventing HIV infection and gonorrhea in 
men, but not as effective with all sexually-transmitted 
diseases, which is related to what you just said.'' End of 
quote.
    I know you have traveled to Uganda and you have significant 
experience in this area, so I assume you did choose these words 
carefully. Is it your view that the C in Uganda's ABC program 
refers to condom use by high-risk populations but not by the 
general population of sexually active adults and teens?
    Mr. Allen. Senator, I believe the statement you're 
referring to in which--certainly I have focused on the ABCs in 
the Uganda model. The Uganda model is much more comprehensive. 
It focuses on condom use across a broad spectrum, but their 
focus has been on high-risk populations, namely populations in 
which you have transients along the borders where there are 
wars that are taking place. You find that soldiers will come 
back. In areas where there is poverty and drought, you find 
that oftentimes women, in seeking to provide for themselves and 
their families, will resort to commercial sex work. And so the 
C, it focuses not just on the high-risk population, but that is 
where the concentration has been. It focuses across the board 
for those who engage in sexual activity with not having a 
partner that they have been faithful to, and without knowing 
the status of the other individual.
    Senator Feingold. Fair enough. But with regard to Uganda 
and then in general, you would not limit the use of condom use 
in AIDS prevention just to the high-risk population?
    Mr. Allen. Senator, that's correct. I would not limit the 
use to high-risk populations, but I would also add the 
information to understand the effectiveness of condoms in those 
populations.
    Senator Feingold. Fair enough, and I do think the quote 
that I read could lead to the misleading impression that it was 
more narrow, and I appreciate the fact that you have clarified 
that and conceded the greater significance of the C part of the 
ABC, that it is not just limited to one population.
    Mr. Allen. Thank you, Senator.
    Senator Feingold. Let me move to another question related 
to HIV/AIDS. When HHS Secretary Tommy Thompson spoke at the 
Global AIDS Conference in Barcelona in 2002, he was met with 
protest over the U.S. policy on AIDS from both U.S. and foreign 
groups. Reportedly, as a result of those protests, Indiana 
Congressman Mark Souder demanded an audit of several well-
respected federally funded AIDS service organizations, 
including AIDS Project Los Angeles, New York Gay Men's Health 
Crisis on the grounds that some of their members had 
participated in the demonstration.
    When you were asked about the audit, it was reported that 
you stated that the audits were routine, but you also said that 
protestors should, quote, ``think twice before preventing a 
cabinet-level official from bringing a message of hope to an 
international forum,'' unquote.
    Sir, did you have any role at all in ordering these audits, 
and were the audits actually routine, or were they initiated as 
a result of the protests and Representative Souder's request?
    Mr. Allen. Senator, let me thank you for the question again 
about what happened in Barcelona at the International AIDS 
Conference. It was a conference that brought the world together 
to talk about trying to find solutions to a disease that is 
devastating the world. And I was there. I was present at that 
time. And, sir, I think the context in which you're referring 
to--there have been several aspects of audits. There have been 
several aspects of department review of programs. What I was 
referring to specifically there are several things, and I want 
to kind of unpack your question because it covers a number of 
issues.
    First, the Department, as a routine basis, reviews the 
funds from various programs. We have conducted a review of 
funds in terms of bioterrorism. We do that across the board in 
terms of the Ryan White program, HIV programs, as a part of our 
responsibility. Those audits were ongoing. They were activities 
the Inspector General had been undertaking in their annual plan 
for reviewing programs and how they use funds. That is one 
aspect of it.
    In terms specifically of audits that were requested, we 
received a letter indeed at the Department, the Inspector 
General received a letter requesting that specific audits be 
done. That letter requested that--the Inspector General 
undertook those reviews consistent with her obligations and 
responding to Congressional inquiries.
    And lastly, in terms of my statement at the Barcelona 
conference, what I was referring to there was very specific. 
When you have a high-ranking U.S. official at an international 
conference, it is very inappropriate to prevent the individual 
from bringing what we believe is a true message of hope. This 
administration has provided millions of dollars, in fact the 
largest contributor of any nation, to try to address and 
redress HIV and its impact around the world, and to prevent 
Secretary Thompson, a man of great compassion and great passion 
about this issue from speaking at an international conference, 
certainly brought the wrong attention to this country and our 
efforts. My thoughts, however, and my comments were not means 
as a threat. I did not order anything in terms of an audit and 
did not participate in any audit activities.
    Senator Feingold. So you did not order the audit as 
requested by Representative Souder; is that right?
    Mr. Allen. No, sir. That was a request that was made 
directly to, I believe, the Secretary and the Inspector 
General.
    Senator Feingold. I certainly agree with your 
characterization of Secretary Thompson. We are very proud of 
him in the State of Wisconsin. But let me just ask you 
generally, do you think it is appropriate for a Government 
official to threaten Government action against critics who are 
exercising their right to free speech?
    Mr. Allen. Not at all. I think threats of any kind--I think 
a Government official should deal with all individuals, 
organizations, with the utmost respect, allowing them to 
express their views. And in fact, in that very situation, 
Senator, not only even after these groups prevented the 
Secretary from speaking at an international forum, we met with 
them. We pulled them into a room together to discuss ways that 
we could work together, both internationally, and most 
importantly domestically, because HIV/AIDS is devastating our 
country as well. There are women, children and men throughout 
this country who are dying of this disease, particularly in the 
African-American community. We know that black women, Latino 
women, are 82 percent of the cases of HIV/AIDS in this country. 
72 percent of the cases of children with HIV/AIDS are African-
American and Latinos. And so when we speak, we must speak 
together.
    But we will have differences, and we need to resolve those 
differences in an amicable way. So I in no way believe that 
Government officials should threaten, but rather we should use 
the power of our office to persuade and to win over friends, 
and that's what I've tried to do throughout my career, and 
that's what I would try to do should this Committee and the 
Senate afford me the opportunity to be a judge on the Fourth 
Circuit, United States Court of Appeals.
    Senator Feingold. Thank you, Mr. Allen.
    Thank you, Mr. Chairman, for the extra time.
    Chairman Hatch. Thank you, Senator. We appreciate it. We 
had set that clock at 7 minutes so I gave you until 10 minutes. 
We will give the same amount of time to Senator Durbin.
    Senator Durbin.
    Senator Durbin. Thank you, Mr. Chairman.
    Mr. Allen, thank you for joining us today.
    Mr. Chairman, I would like at this point, with your 
permission, to insert into the record letters that have been 
received in relation to the nomination of Mr. Allen to the 
Fourth Circuit Court of Appeals.
    Chairman Hatch. Without objection, they will be put in the 
record.
    Senator Durbin. Thank you, Mr. Chairman.
    I would like to ask Mr. Allen about one in particular. I 
believe that Mrs. Michele Finn is in the audience today, is 
she? Yes.
    Mr. Allen, we all read the headlines today in Florida about 
the Schiavo case, and it brings to mind the terrible situation 
which faces families when it comes to the last--the end of 
life, the last moments of life. We try to construct ways to 
deal with this humanely and sensibly, and it is my 
understanding that in Mrs. Finn's case that in 1996, if I am 
not mistaken, her husband was involved in a very serious 
automobile accident, and as a result was left in a permanent 
vegetative state. He had left express instructions with Mrs. 
Finn that his life was not to be continued by extraordinary 
means. It is my understanding that beyond the treating 
physician, Mrs. Finn found two other doctors who gave her the 
sad news that there was no hope that her husband would recover. 
Under Virginia law she was given the authority, as the legal 
guardian of her husband, to make this sad and painful decision 
about withdrawing artificial means of life support. It is true 
that there were some members of her family who did not agree 
with that decision, but she felt that she was abiding by her 
husband's wishes, complying with the law, and making this 
painful decision that had to be made.
    Her letter tells a very troubling story about your role in 
this emotional family decision. It tells of your resistance to 
her making this decision. It tells of actions taken by you in 
your capacity with the State of Virginia to send investigators 
to the nursing home where her husband was being cared for in an 
effort to try to discredit some of the things that she had said 
publicly about his treatment and his prospects of recovery. 
This dragged on, if I am not mistaken, for almost a full month, 
when it had reached a point where everyone had agreed there was 
no place to turn.
    Mr. Allen, I read this, and I am curious as to what was 
motivating you to inject yourself personally into this painful 
family decision. Ultimately the Virginia Supreme Court stopped 
your efforts and said, no, she has the right under the law to 
make this family decisions. Some have suggested it was part of 
some political agenda, and I hope that was not the case. But 
Mrs. Finn has come forward with the letter today and really 
questions whether, based on her experience with you under that 
most painful situation, that you have what it takes to take on 
this critical Federal Circuit judgeship.
    Why did you not follow Virginia law, allow Mrs. Finn to 
make this family decision, stand by the doctors who were 
treating her poor husband? Why did you feel obligated to drag 
this out with your own investigations and your own personal 
involvement?
    Mr. Allen. Senator, I thank you for the question. I believe 
that end-of-life decisions are often very difficult to make for 
families, are very painful to make. My role in Virginia as 
Secretary of Health and Human Resources, my obligation under 
the laws of Virginia and under the U.S. laws in terms of our 
dealings with the Centers for Medicare and Medicaid Services as 
it dealt with patients who were in nursing home facilities was 
simply ministerial. My role in this situation was very minimal. 
In fact, I received a phone call, as I would normally do in my 
Department, that said that there was a patient who was in a 
nursing home, considered in a persistent vegetative state, and 
there was a concern that this patient's rights were being 
denied. I took the steps that were required by me to instruct 
the agency that oversees our nursing homes to handle it in a 
routine manner.
    That was about the extent of my involvement until I got a 
call 1 day from Mrs. Finn, Michele Finn, who requested that I 
instruct the Governor and requested of the Governor that he not 
get involved in the case. My role in the Hugh Finn situation in 
Virginia was very minimal. In fact, sir, I do not know the 
basis upon which Mrs. Finn forms her opinions of me, but I will 
assure you that in this situation my role was very minimal, in 
simply passing information to the Governor for his 
consideration. At that point my role ended. I was not involved 
in the litigation. I was not involved in any of the proceedings 
that took place in this matter.
    And with regards to the Supreme Court, Senator, I want to 
draw your attention to--it was a unanimous decision of the 
Supreme Court that held that Mrs. Finn had the right under the 
Health Care Decisions Act to make the decision that she did. 
That Supreme Court also noted, however, that it was important 
and it was right for the Governor to seek redress in the courts 
because the Health Care Decisions Act of Virginia as unclear in 
the matter.
    Senator Durbin. Let me ask you--
    Mr. Allen. If I may continue?
    Senator Durbin. Sure.
    Mr. Allen. As a result of that, the Supreme Court of 
Virginia said that the Governor took the right steps that he 
felt his obligation was to the citizens of the Commonwealth, to 
protect them regardless of their circumstances, and that's what 
the Governor did.
    So not withstanding that the Court concluded that indeed 
the Health Care Decisions Act allowed Mrs. Finn to take the 
action she did, it noted that the Governor acted rightfully in 
executing his responsibilities as the Chief Executive Officer 
of the State.
    Senator Durbin. If I might ask you this. You have described 
your role as ministerial. My understanding of that word is that 
it suggests relatively little involvement on your part, merely 
following the administrative procedures as set down. So you 
were saying that you had no personal role in the decision by 
the Commonwealth of Virginia to intervene in this case to block 
Michele Finn from deciding to take her husband off life 
support?
    Mr. Allen. Yes, Senator, That is correct.
    Senator Durbin. You had no role in that. Did you have any 
role in sending nurses to investigate false claims about her 
late husband's treatment at the nursing home?
    Mr. Allen. I did not, sir. That would be the role of the 
Director for the Medical Assistance Services Department of the 
Commonwealth of Virginia, which was an agency that reported to 
me, but their activities were routine in sending out--when a 
patient in Virginia, whether it be in a nursing home, an adult 
care facility, a facility under which the Centers for Medicare 
and Medicaid Services expends funds, we have an obligation to 
investigate, and that agency did that.
    Senator Durbin. And you never personally contacted any 
family members of the Finn family to persuade them to keep 
their appeal open on this case?
    Mr. Allen. No, sir. My contact with family members came as 
a result of family members contacting my office, the Governor's 
office, could not reach the Governor's office--
    Senator Durbin. You never tried to persuade them to keep 
their appeal open when Michele Finn had made her decision?
    Mr. Allen. Senator, I did not, no.
    Senator Durbin. Let me ask you a couple other questions if 
I might. You worked for Senator Helms and were involved in a 
controversial campaign of his in 1984. You made some statements 
during the course of that campaign that I would like for you to 
explain to me if you might. One of them related to homosexuals. 
Less than a month before the election you were quoted by the 
Greensboro News Record that Senator Helms' opponent, Governor 
Hunt, was vulnerable because of his links, quote, ``with the 
queers,'' close quote. You went on to say, quote, ``We could 
expound''--referring to the Hunt campaign--quote, ``We could 
expound on and undertake a campaign against Jim Hunt's 
connections with the homosexuals, the labor union connection, 
the radical feminist connection, the socialist connection.'' 
And then you went on to say, ``We could go back and do the same 
thing with the queers.''
    Could you explain to me what you meant by that remark?
    Mr. Allen. Senator, I do. I remember that very distinctly, 
that situation, because I believe if you read in that same 
article, you will read further, my response to that when the 
reporter stated that I used that term, used the word 
``queers.'' Again, 20 years ago, when I was the press secretary 
in the Helms campaign, that reported called and was asking 
questions about, and actually was making statements about what 
was being said about Senator Helms and his supporters 
throughout the campaign. I think there were words used like 
``fanatic,'' ``radical,'' any kind of pejorative words that 
could be used. My statement at that time was, ``This is 
ridiculous. We should not be engaging in any ad hominem 
attacks.''
    And because I had a relationship with this reporter 
throughout that time, I shared with him that this is silly. I 
said, I have been on the campaign for 2 years and I have seen a 
lot of very strange, abnormal, out-of-the-ordinary individuals 
and groups working across the campaign, sir. And in fact I did 
use the word ``queer.'' I used the word ``queer'' in my mind, I 
think at the time in the dictionary it was described as odd, 
out-of-the-ordinary, unusual. I did not use the word as a 
pejorative. I did not use the word to denigrate any individual 
or any group. Again, 20 years ago that was a statement that I 
made.
    Senator Durbin. Let me ask you this question. In a follow-
up interview with the Dome, you stated that the remark was 
quote, ``an indiscretion,'' close quote. Now, that seems 
inconsistent with what you have just said, that you just were 
referring to odd people. So what is it?
    Mr. Allen. Senator, if you go back again and look at the 
exact article that you're referring to that you have before 
you, in that article you will find that when the reporter 
called me back to say, ``Did you know that you used the word 
`queer'?'' I was shocked by it and in fact--
    Senator Durbin. Why were--
    Mr. Allen. Sir, if I may--
    Senator Durbin. Why were you shocked if it just meant an 
odd person?
    Mr. Allen. Because he interpreted it a different way, and 
when he came back to me he said, ``Did you know you used this 
word?'' And in fact, in the article that sits before you that 
you're reading from, you will see in that exact article, before 
it even went to press, I extended an apology if anybody was 
offended by the word that I used.
    Senator Durbin. Do you think Federal Judges today should 
use the word ``queer'' in normal conversation in relation to a 
group of people in America?
    Mr. Allen. Senator, again, I did not use the word ``queer'' 
in relation to a group of American--and America.
    Senator Durbin. Do you think Federal Judges should use the 
word ``queers'' just--
    Mr. Allen. Senator, I don't believe that we should use 
words that are pejorative in nature, that denigrate any 
individual.
    Senator Durbin. Do you think that is pejorative and 
denigrates a person, the word ``queer?''
    Mr. Allen. In the terms that you're--the connotation that 
you're giving to it, Senator, I believe that is a pejorative, 
and it's a word that should not be used. It's a word that I do 
not use. It's a word that as a judge I think would be 
inappropriate to use to characterize an individual or group.
    Senator Durbin. Mr. Allen, what should we teach our 
children about those who are homosexual and lesbian, people of 
different sexual orientation?
    Mr. Allen. Senator, I don't know how to answer that 
question, but I can tell you what I teach my children.
    Senator Durbin. That is all I am asking.
    Mr. Allen. And my son is sitting here with me today. I 
brought him here for the very reason that I believe that we 
should be teaching our children that they should be part of a 
society that has treated me with great kindness, that has 
afforded me tremendous opportunities to sit here before you 
today to be considered to be a judge. I think I teach my 
children, my wife and I, to have respect and treat people with 
the very same dignity that they want to be treated with.
    You see, my son knows his heritage. He knows that his 
great-grandfather was one of 25 children, lived to be 114 years 
old, the first child in his family not to be born a slave. My 
son knows his heritage, and that is what we teach our children, 
is how to respect and afford every person the equal dignity 
that they deserve.
    Senator Durbin. Do you understand how some people in 
America might take your use of this word ``queers'' as being 
negative to denigrate them and not respectful?
    Mr. Allen. Senator, absolutely, and that is the exact 
reason why the time that I used the word, I sought to correct 
the record so that it would not be understood to denigrate any 
individual or any group.
    Senator Durbin. So then let's talk about another, if I 
might, Mr. Chairman, if I might ask you about the Martin Luther 
King holiday. Senator Helms, whom you worked for at the time, 
initiated a filibuster to stop the Martin Luther King holiday. 
What was your opinion of that filibuster and Dr. Martin Luther 
King's contribution to America?
    Mr. Allen. Senator, I appreciate your question regarding 
Dr. Martin Luther King. He has been a hero for me and my 
family, my generation. In fact, I believe that, again, if you 
look back at the record, you will see during the time that that 
holiday was being decided and voted on, it was the most 
difficult day for me in my life, because here was someone that 
I had grown up respecting, deeply respecting for his 
contribution to American society, for fighting for the civil 
rights not just of black people in this country but of all 
people in this country, and, in fact, it was such a difficult 
time that I left. I left the campaign that day because I was 
deeply impacted by what was going on here in Washington.
    And so, sir, my view of that day, my view of what was going 
on was one that was deeply conflicting for me because at the 
time that I was working there, I had a great respect for Dr. 
Martin Luther King and continue to have an abiding respect for 
him and his work and look forward to always have the 
opportunity to teach my children about what he has taught 
America and the world about peace, about resolving conflict 
peacefully, and about the importance of the dignity of 
individuals.
    Senator Durbin. May I call your attention to the News and 
Observer, Raleigh, North Carolina, December 25th--it is hard to 
read, but it appears to be 1983. And here is what the reporter 
said. The reporter's name, Rob Christiansen. This is an article 
about your relationship with Senator Helms and his agenda. 
``Allen said he shared those reservations about the King 
holiday and believes Helms was unfairly criticized. Allen said 
there is ample documentation that key King advisers were 
members of the American Communist Party. Allen said there are 
other prominent blacks more deserving of a national holiday, 
such as track star Jesse Owens, educator George Washington 
Carver, and abolitionist Frederick Douglass.''
    Did you say those things?
    Mr. Allen. Senator, I do not see--I don't have the article 
before me that you're referring to, but I'd note that 
particularly in the article that you're referring, I don't 
think it's quoting me as saying anything to that effect. But 
let me make sure that I clarify for the record what my view was 
and is about the Martin Luther King holiday and about the other 
individuals that you mention there.
    I believe that Dr. King deserved a holiday. I believe that 
Dr. King has worked tirelessly in his lifetime for this 
country. I believe that the Martin Luther King, Jr., Center for 
Creative Non-Violence continues that work today. That's why 
I've worked with them in many areas.
    In terms of Jesse Owens and others, I assume--I believe 
that my comment would be that there are many African Americans, 
including Jesse Owens, including others, who have contributed 
not just to African-American culture, sir, but to American 
culture, and that those individuals would be deserving of 
attention as well. So, sir, I do not have the ability because I 
don't have the context before me--
    Senator Durbin. If I could ask one last question, Mr. 
Chairman, this will be the last in this round.
    Do you still believe that key advisers to Dr. Martin Luther 
King were members of the American Communist Party?
    Mr. Allen. Senator, I believe that the factual record 
indicates that there were associates of Dr. Martin Luther King 
who were members of the American Communist Party. However, 
notwithstanding that, that says nothing about the contribution 
that Dr. King has made to our society. We know that during that 
time there were people on all sides and many people in this 
country who were members of the American Communist Party. But 
that does not necessarily mean that Dr. King was.
    Chairman Hatch. Thank you, Mr. Allen. Just one question, 
and I want to turn to Senator Sessions because he has to 
preside over the floor and would like to say a few things or 
ask a few questions.
    With regard to the use of that term, if I interpreted you 
correctly, you are saying by today's standards that is a bad 
term under all circumstances.
    Mr. Allen. I would say that, yes, sir.
    Chairman Hatch. Twenty years ago, you did not mean it that 
way.
    Mr. Allen. That's correct, Senator. I did not.
    Chairman Hatch. You clarified that in the article--
    Mr. Allen. I clarified that.
    Chairman Hatch. --or the interview whether it was--whether 
he put all of your remarks in the article or not, you clarified 
it?
    Mr. Allen. That's correct, Senator.
    Chairman Hatch. That is what I got out of all that, and I 
agree, today it would be a very pejorative term. And to many 
back then it would be. But that is not the way you meant it.
    Mr. Allen. That's correct, Senator.
    Chairman Hatch. Let me turn to Senator Sessions, and then I 
would like to ask some questions.

STATEMENT OF HON. JEFF SESSIONS, A U.S. SENATOR FROM THE STATE 
                           OF ALABAMA

    Senator Sessions. Thank you, Mr. Chairman. I got to know 
Secretary Allen when we had a problem in Alabama with health 
care in the rural areas of the State, African-American majority 
in many of the counties, and the health care system that was 
working there was not working. And there was concern over the 
quality of health care and financial management and some 
decisions had to be made. And we were concerned as to whether 
or not in making some changes we would have periods of time in 
which there would be no health care in the region, that people 
who were depending on those clinics wouldn't get health care.
    Now, I asked you to help. You said you would. You said you 
would come to Alabama. You came and spent 2 days, and we 
traveled through towns of 100 and 250 and small towns, and we 
visited clinics and we talked to people. And you made a 
commitment that we would not see a degradation of health care, 
and I want to thank you for that personal commitment to poor 
people in Alabama who had no, I guess, power to claim or demand 
anything, but you responded. Thank you for that.
    Mr. Allen. Thank you, Senator. It was a privilege to travel 
with you during that time.
    Senator Sessions. And we fixed the problem, I think.
    Mr. Allen. Indeed we did, and that's part of what I've 
tried to make my career in the executive branch, sir, doing, is 
trying to solve problems, ensure that people of all 
backgrounds, regardless of race, regardless of ability to pay, 
receive quality health care. And, Senator, your leadership in 
that and partnership with the executive branch to accomplish 
that was a tremendous opportunity and I thank you for it.
    Senator Sessions. Well, thank you. I don't usually have the 
Principal Deputy Secretary, Tommy Thompson's right-hand man, 
saying, ``I will leave Washington and come down and travel with 
you and see firsthand this problem,'' and that was something I 
really appreciated and will not forget.
    I just want to say, with regard to your background, I think 
it is extraordinary. You have State, local, and Federal 
experience. You have served on the Foreign Relations Committee 
staff here, as a press secretary in one of the most 
contentious, toughest campaigns America has seen, and you were 
young and a press secretary then. That was before you went to 
law school, was it not?
    Mr. Allen. That is indeed correct, Senator.
    Senator Sessions. I guess they teach you to be more careful 
with your language when you go to law school. As a matter of 
fact, I had a little meeting with my staff yesterday about--I 
said getting speeches and remarks past me is difficult because 
I have been to law school and they teach you to be so 
persnickety about what you say.
    But I am looking at your background. Here you went to the 
University of North Carolina, one of the great universities in 
America, and got your B.A. there. You went on in 1990, later, 
after working in Washington, and got your law degree at Duke, 
one of the great law schools in America, got your LL.M. in 
international and comparative law at Duke University. And I 
think that is a tremendous academic background. You clerked on 
a court of appeals, which is--would you explain to us, please, 
Mr. Allen, how when you clerk on a court of appeals, what kind 
of experience that gives you and insight that gives you to be a 
court of appeals judge?
    Mr. Allen. Thank you, Senator, for the opportunity to do 
so. The D.C. Circuit Court of Appeals is the U.S. Federal court 
of appeals that sits under the Supreme Court that handles the 
D.C. Circuit. The cases that come before that court are some of 
the most complex in the country, in large part because it is 
largely the administrative docket. It handles the Federal 
Energy Regulatory Commission, all the agency appeals that would 
come there, and so it has a heavy administrative docket that I 
had worked on for Hon. David B. Sentelle.
    We also would handle your civil cases, your criminal cases, 
and so it was a broad exposure to the many opportunities 
addressing complex litigation questions that came before the 
court.
    Senator Sessions. And that judge you worked for was a court 
of appeals judge, the same position you are being nominated 
for.
    Mr. Allen. That is correct.
    Senator Sessions. And you sat basically at his right hand, 
heard the arguments, helped prepare briefs, do research, and 
were familiar with the entire panoply of issues that would come 
before you as a circuit judge.
    Mr. Allen. That is correct, Senator.
    Senator Sessions. And also let me point out for the 
record--and I think most lawyers know--being selected as a 
clerk for a court of appeals judge is a great honor. It is hard 
enough to be a clerk for a Federal district judge, but to be 
selected as a clerk for a court of appeals judge says a great 
deal about your legal ability, your law school record, your 
integrity and work ethic, or you wouldn't have been selected. 
Maybe you don't want to comment on that, but very, very few 
lawyers are selected to be clerks for the courts of appeals in 
the United States and even fewer for the Supreme Court. And not 
many get selected as clerks for Federal district judges because 
all of those are premier legal appointments for top graduates 
of top law schools.
    Then you went on with Baker and Botts, an attorney for 
them, which is one of the great law firms, I guess, in the 
world. You were counsel to the Office of Attorney General in 
Virginia, a Deputy Attorney General. When I was Attorney 
General of Alabama, my deputies were the key people that I 
depended on. They did the legal work in the office. They 
briefed me, and I didn't put somebody in as a deputy that I 
didn't trust.
    What kind of matters did you have under your portfolio 
there, Mr. Allen?
    Mr. Allen. Thank you, Senator. In the Attorney General's 
Office, as the deputy I headed the civil litigation division, 
which meant that I had a staff of 75 attorneys and staff who 
handled all the civil matters for the Commonwealth of Virginia. 
We handled real estate cases, employment cases. We handled the 
energy utility cases, consumer protection issues, and other 
civil litigation issues. And so it was the largest division of 
the Office of the Attorney General that I was charged with 
overseeing and working in those cases.
    We also handled a lot of elections law issues and 
reapportionment cases, cases that would impact the rights and 
obligations of the Commonwealth of Virginia.
    Senator Sessions. Well, I think that is an important 
position. There is no doubt about it. The civil litigation 
involved millions and millions of dollars, and the experience 
you get as an Attorney General is important for a court of 
appeals judge, in my view, because so many of the issues that 
bubble up to the courts of appeal that have such impact involve 
the States and governmental agencies. So that is a good 
background. In addition to your private practice, you were 
Secretary of Health and Human Resources in the Office of 
Governor of Virginia, in his Cabinet, and Deputy Secretary, 
really the principal senior deputy, for the U.S. Department of 
Health and Human Services serving at the right hand of former 
Governor and now Secretary Tommy Thompson.
    I would just say one thing about--and I have got to run and 
preside in the Senate. I wish I could be with you longer 
because I really respect you and I appreciate your leadership. 
When Mr. Gregory was appointed by President Clinton to the 
Fourth Circuit, Senator Helms was not happy about that. He 
thought it was a North Carolina seat. They had gone to zero 
judges from North Carolina, as I recall. It is zero now, maybe, 
unless they count you. You could claim two States, perhaps. So 
we went all through that. But everybody knew that the President 
had no legal requirement to appoint anybody from a State, and 
judges on circuit courts of appeals do not represent States. 
They represent the United States of America, is who they 
represent. They speak for the Constitution and the Federal 
laws, and, in fact, we have created Federal courts, as the 
Constitution did, to try to make sure that you do not have home 
cooking, that they represent a fair group of referees that are 
not part of the local milieu that wouldn't give people from 
different States an unfair ruling--to give a fair ruling.
    So it is not as if you are there to represent a State, but 
as part of history and tradition, usually judges come from each 
State on a proportional basis, and that is how that goes. The 
fact is we are out of sync in the Fourth Circuit. Virginia is 
underrepresented in the court, and so is North Carolina. And I 
think this is not an extreme thing by the President. He 
discussed that. He wrote letters about it explaining what he 
was doing, Mr. Gonzales did, and I hope that our Senators from 
Maryland will understand that this is not an affront to 
Maryland, but it is a situation in which the President has some 
leeway to appoint from what States he wants, and he tries to 
respect the interest of various States, but ultimately his 
appointment, other than that one has to be from each State--
that is by law. I just think that we need to work our way 
through this. I respect their concerns, but I really do believe 
Maryland is not going to get shortchanged in it. They were 
certainly supportive, as I recall, of Mr. Gregory when 
President Clinton nominated him in what was perceived to be a 
North Carolina seat and supported him when President Bush 
nominated him.
    Thank you, Mr. Chairman. I hate to run back to the floor, 
but I am due to preside.
    Chairman Hatch. Well, thank you, Senator. We appreciate it.
    Before I turn to Senator Craig, let me just ask you a 
couple of questions. The Hugh Finn situation was raised, and I 
think we ought to set that record as clear as we can. You 
received a complaint from the State representatives and from 
some of Hugh Finn's family members about the care he was 
receiving at the nursing home at which he was hospitalized, and 
you referred those complaints to the Governor, as I understand 
it. Is that right?
    Mr. Allen. I referred to the Department of Medical 
Assistance Service, which was the agency that was required to 
undertake any investigation, but also forwarded it to the 
Governor because of the significance of the case.
    Chairman Hatch. Did you draft any of the Governor's briefs 
in the case?
    Mr. Allen. No, Mr. Chairman.
    Chairman Hatch. Were you named as a defendant in Michele 
Finn's motion for sanctions against the Governor's office for 
its role in the case?
    Mr. Allen. No, Mr. Chairman.
    Chairman Hatch. Did the Virginia Supreme Court decide that 
sanctions were warranted against the Governor's office for 
conduct in the case?
    Mr. Allen. It did not, Mr. Chairman.
    Chairman Hatch. Okay. In fact, didn't the Virginia Supreme 
Court specifically say that the Governor's interpretation of 
the Virginia Health Care Decisions Act, which was the 
controlling statute in this case, was reasonable at the time 
because the court itself had not authoritatively construed the 
relevant provisions of the statute?
    Mr. Allen. Yes, Mr. Chairman.
    Chairman Hatch. Entirely apart from the legal issue in this 
case, let me just note that the material this Committee has 
received indicate to me that there were serious disputes 
amongst Hugh Finn's family members about how terminal his 
condition was and whether his feeding tube should be removed. I 
understand that the State introduced evidence that 43 percent 
of patients diagnosed as being in a persistent vegetative state 
are diagnosed wrongly. Is that right?
    Mr. Allen. I understand that is correct, Senator.
    Chairman Hatch. Is it also true that it was a serious 
dispute among various family members?
    Mr. Allen. That was very clear, yes, sir.
    Chairman Hatch. And, further, didn't Michele Finn's sister 
and mother in addition to Hugh Finn's brothers, mother, and 
father plead with the Governor to get involved in this case to 
save Hugh's life even after they had agreed to drop their 
personal legal actions against Michele?
    Mr. Allen. Yes, Mr. Chairman.
    Chairman Hatch. Ed Finn, one of Hugh's brothers, wrote a 
letter to the editor of the Washington Post after that 
newspaper had editorialized in favor of his wife's decision to 
remove Hugh's feeding tubes. Let me quote briefly from that 
letter, which I think is very powerful: ``The Post said that 
reason as well as the law prevailed when the courts turned away 
Virginia Governor James Gilmore's attempts to block removal of 
my brother's feeding tube. I often wish I had the omniscience 
of the press so I could pass such judgments and know all 
things. I don't. But I, nonetheless, applauded the actions of 
Governor Gilmore because I believe he acted out of human 
compassion. The part of my family that capitulated to the will 
of Hugh's legal guardian, his wife, Michele, still does not 
agree with her. We feel that she unnecessarily took a life and 
took it by a method that was far from merciful.''
    Finally, Governor Gilmore received the following 
handwritten letter from Hugh's mother after Hugh's death by 
starvation, which took 10 days, as I understand. ``I am writing 
to thank you for coming forward and trying to save my son's 
life. I realize it took courage on your part, and you were 
always subject to ridicule. We know you did not do this for 
political purposes, but only to help save a life and to help 
our family. We are very grateful to you and are sorry for any 
problems that this has caused you.''
    Were you aware of that?
    Mr. Allen. Yes, I was, sir.
    Chairman Hatch. Okay. Well, I don't think it is fair to try 
and find some fault on your part with regard to this very, very 
sensitive and difficult set of problems.
    Now, Secretary Allen, you have served in all three branches 
of the Federal Government, as well as the executive branch of 
the State Government. You now manage a budget of over $400 
billion as Deputy Secretary of HHS. Your academic credentials 
include a law degree as well as a Master of Law degree from a 
very good law school, Duke University, one of the finest law 
schools in the Nation.
    Now, let me ask you, what would your grandfather--Grandpa 
Ray you referred to--who I understand died when he was 114 
years of age and was the first in his family who was not born a 
slave. What would he tell us about you if he were here today 
and we asked him whether you were prepared to be a Federal 
appellate judge?
    Mr. Allen. Mr. Chairman, I want to thank you for that 
comment and thank you for acknowledging my family and its 
heritage. My grandfather had a significant impact on my life. 
Because of the hardships that he grew up in--he was a 
sharecropper, he raised 13 children, and he didn't harbor a 
hateful bone in his life, in his body. He cared about people. 
He reached out to people. And my grandfather would say, ``A job 
well done, my grandson.'' He would say to continue serving our 
Nation and serving and giving back to those who I've received 
from. And so I am very honored to be nominated by the 
President, to lay my credentials for this Committee and this 
body, and to have an opportunity to bring some pride to my 
family, for them to be pleased to know that a young man who 
grew up in this city in a two-bedroom apartment could 1 day sit 
before the people of this country and serve them in a public 
office and be entrusted with the opportunity to do justice for 
others, I think my Granddad would be very honored and very 
proud.
    Chairman Hatch. I think he is, between you and me.
    Now, Secretary Allen, among the many important issues you 
have dealt with directly during your tenure at HHS is Project 
Bio-Shield, which I understand you are working to implement. 
Can you explain what that program is and the progress you and 
HHS are making towards it completion?
    Mr. Allen. Thank you, Mr. Chairman. Project Bio-Shield is a 
result of the events of post-9/11/2001, a date that we'll all 
remember in this country. As we surveyed the role of the public 
health community, we surveyed and understood the preparation 
that this Nation has, we realized there were some significant 
gaps--significant gaps in preparing us to respond to not only 
bioterrorist events but other events that impact our society 
that can have a public health impact. And so Project Bio-Shield 
is a multimillion-dollar initiative sponsored by the President 
and supported by the Congress that is calling for the 
Department to advance the research necessary to produce 
antidotes, to produce vaccines, for example, to produce a next-
generation smallpox vaccine, to produce a vaccine to fight 
anthrax, botulinum toxin, many agents that we don't know, or to 
produce a vaccine to combat the plague, a 14th century disease 
that we often think is not one that anybody would relish 
contracting, but can be weaponized and used against this 
country.
    And, indeed, as a part of the Department, it is a privilege 
to uphold the oath that I took as the Deputy Secretary, and 
that was to defend the Constitution of the United States 
against enemies, foreign and domestic, and that's what we 
believe Project Bio-Shield would give us an opportunity to do. 
And so we are grateful for the support of the Congress, the 
appropriations to do that, and the National Institutes of 
Health, the Food and Drug Administration, the Centers for 
Disease Control, the Defense Department, and many other 
partners are working on this together to try to make America a 
safer place.
    Chairman Hatch. Well, thank you. I will reserve and submit 
questions in writing, further questions.
    Senator Craig from Idaho.

STATEMENT OF HON. LARRY E. CRAIG, A U.S. SENATOR FROM THE STATE 
                            OF IDAHO

    Senator Craig. Thank you very much, Mr. Chairman.
    Secretary Allen, it is enjoyable for me to sit here and get 
to know you better simply by listening, because while I knew of 
you, I had not had an opportunity to review your background and 
your experience, your education, your training. It is broad, 
extensive; for your age it is phenomenal. And I congratulate 
you on your successes.
    Senator Sessions a few moments ago talked about circuit 
courts and why they were established. He used a unique phrase, 
basically to disallow ``home cooking.'' In other words, the 
guardians of the Constitution, to make sure that State courts, 
in essence, or even district courts did not necessarily 
misinterpret or misuse the Constitution or interpret it in a 
way that it was not intended to be. So your job is an important 
one. It is a critical one to our country, and I congratulate 
you on your nomination.
    Let me for just a few moments probe your thought processes, 
your thinking, and how you might function as judge. What do you 
think the most important attributes of a judge are, and in this 
case, a circuit judge?
    Mr. Allen. Senator Craig, thank you for the question. I 
believe that it is very clear that a candidate for whether it 
be the circuit court or the district court needs to be an 
individual, man or woman, who has the academic preparation, has 
the professional preparation to undertake a seat on the court 
to which he or she was nominated, but also, must also possess 
the integrity, possess the ability to listen carefully and 
intently, to empathize with those who come before him or her in 
the court on which they sit, but also should have a commitment 
to upholding the Constitution of the United States and the laws 
interpreting that Constitution by the Supreme Court or a 
superior court in that case for the district court. And so 
those would be some of the characteristics that I believe that 
a judge for any court should possess before taking that office.
    Senator Craig. Do you possess them?
    Mr. Allen. Senator, I would lay my credentials before you 
and allow you to be the judge of that. But I do believe that I 
have prepared for such an opportunity to serve and would be 
honored to do so.
    Senator Craig. Probably all of us in our growing up, if you 
will, look at others, use them as examples of people we would 
like to be like, or certainly those within our profession that 
we would like to achieve to equally. Is there a member of the 
bench, living or dead, whom you admire?
    Mr. Allen. Senator, I would do great injustice if I didn't 
mention the judge for whom I clerked. The Honorable David B. 
Sentelle, who sits on the D.C. Circuit, would be one.
    I have great respect for all of the Justices of the Supreme 
Court and members who serve in the judiciary.
    Senator Craig. All of them?
    Mr. Allen. All of them, because each--
    Senator Craig. All right.
    Mr. Allen. Because each individual there--
    Senator Craig. I don't necessarily agree with all of them. 
I might respect them, but I have got a lot of trouble with some 
of them.
    Mr. Allen. Exactly. I believe that while you can disagree 
with them, I think we should all have a respect, a healthy 
respect for the authorities over us. And those would includes 
our Justices and judges who serve in this land because each of 
them have had to work to come to a place where this body has 
deemed them ready to serve and give back in public service. And 
so, yes, I have many that I would say that I look to, but I 
respect all of them for the work that they've undertaken to 
achieve where they are.
    Senator Craig. Say there is no clear precedent in a case 
that you are reviewing and listening. To what source, then, do 
you turn for guidance in rendering a decision that you may 
ultimately have to make?
    Mr. Allen. Senator, you would turn to the Constitution 
first and foremost. That is the oath that we would take, is to 
uphold and defend the Constitution. But we would also look to 
the precedents of the United States Supreme Court, and in this 
case would also, as I would be considered for the Fourth 
Circuit Court of Appeals, I would like to circuit precedents in 
that regard as well.
    Senator Craig. If the Supreme Court reached a decision that 
you believed was fundamentally erroneous, would you follow that 
precedent or apply your own judgment to the issues of law 
placed before you?
    Mr. Allen. As a judge who would be serving on an 
intermediary court, it would be my obligation to follow the 
precedents set by the United States Supreme Court.
    Senator Craig. You view that as your compass?
    Mr. Allen. Absolutely.
    Senator Craig. Well, we hope that the bit of a squabble 
that is going on at this moment between the States of Virginia 
and Maryland can be resolved. I understand how important 
positions like that which you have been nominated to are to all 
of us. And we are constantly reminded--I am in my State--of the 
importance of the circuit and the decisions made. I am 
disadvantaged, though. I reside in the Ninth Circuit, the most 
dysfunctional circuit in the Nation. So our Supreme Court 
Justices speak to that, and we feel very handicapped there and 
are trying to resolve that and reshape it a bit. I think you 
will be serving in a different circuit, but you would serve us 
well in the Ninth with your background and experience.
    Mr. Chairman, let me return to the questioning to you. And 
I look forward to supporting you.
    Chairman Hatch. Thank you so much, Senator.
    Mr. Allen, I have known you for a long time. I have a lot 
of respect for you and I am very proud of you and your family 
and your friends who are here. I hope we can resolve these 
problems. I am certainly trying, because I would like to see 
you serve in this position. You are doing a great job down 
there at HHS, and I respect and appreciate that you job you are 
doing. I thought you did a good job in the State as well, in 
the State of Virginia. So you qualify for this position, and I 
will do everything I can to see that you get into this 
position.
    But right now, it is bollixed up because of the problems 
that have been raised, but I will be working hard to try and 
resolve it. How is that?
    Mr. Allen. Thank you, Mr. Chairman.
    Chairman Hatch. Well, since nobody else is here and 
everybody has had an opportunity who wanted to ask questions, 
we will recess until further notice. Thank you for being here, 
and I will do my very best to get you through.
    Mr. Allen. Thank you, Mr. Chairman.
    Chairman Hatch. Thanks so much.
    [Whereupon, at 12:17 p.m., the Committee was adjourned.]
    [The biographical information of Mr. Allen follows:]
    [Questions and answers and submissions for the record 
follow.]

[GRAPHIC] [TIFF OMITTED] T4083.035

[GRAPHIC] [TIFF OMITTED] T4083.036

[GRAPHIC] [TIFF OMITTED] T4083.037

[GRAPHIC] [TIFF OMITTED] T4083.038

[GRAPHIC] [TIFF OMITTED] T4083.039

[GRAPHIC] [TIFF OMITTED] T4083.040

[GRAPHIC] [TIFF OMITTED] T4083.041

[GRAPHIC] [TIFF OMITTED] T4083.042

[GRAPHIC] [TIFF OMITTED] T4083.043

[GRAPHIC] [TIFF OMITTED] T4083.044

[GRAPHIC] [TIFF OMITTED] T4083.045

[GRAPHIC] [TIFF OMITTED] T4083.046

[GRAPHIC] [TIFF OMITTED] T4083.047

[GRAPHIC] [TIFF OMITTED] T4083.048

[GRAPHIC] [TIFF OMITTED] T4083.049

[GRAPHIC] [TIFF OMITTED] T4083.050

[GRAPHIC] [TIFF OMITTED] T4083.051

[GRAPHIC] [TIFF OMITTED] T4083.052

[GRAPHIC] [TIFF OMITTED] T4083.053

[GRAPHIC] [TIFF OMITTED] T4083.054

[GRAPHIC] [TIFF OMITTED] T4083.055

[GRAPHIC] [TIFF OMITTED] T4083.056

[GRAPHIC] [TIFF OMITTED] T4083.057

[GRAPHIC] [TIFF OMITTED] T4083.058

[GRAPHIC] [TIFF OMITTED] T4083.059

[GRAPHIC] [TIFF OMITTED] T4083.060

[GRAPHIC] [TIFF OMITTED] T4083.061

[GRAPHIC] [TIFF OMITTED] T4083.062

[GRAPHIC] [TIFF OMITTED] T4083.063

[GRAPHIC] [TIFF OMITTED] T4083.064

[GRAPHIC] [TIFF OMITTED] T4083.065

[GRAPHIC] [TIFF OMITTED] T4083.066

[GRAPHIC] [TIFF OMITTED] T4083.067

[GRAPHIC] [TIFF OMITTED] T4083.068

[GRAPHIC] [TIFF OMITTED] T4083.069

[GRAPHIC] [TIFF OMITTED] T4083.070

[GRAPHIC] [TIFF OMITTED] T4083.071

[GRAPHIC] [TIFF OMITTED] T4083.072

[GRAPHIC] [TIFF OMITTED] T4083.073

[GRAPHIC] [TIFF OMITTED] T4083.074

[GRAPHIC] [TIFF OMITTED] T4083.075

[GRAPHIC] [TIFF OMITTED] T4083.076

[GRAPHIC] [TIFF OMITTED] T4083.077

[GRAPHIC] [TIFF OMITTED] T4083.078

[GRAPHIC] [TIFF OMITTED] T4083.079

[GRAPHIC] [TIFF OMITTED] T4083.080

[GRAPHIC] [TIFF OMITTED] T4083.081

[GRAPHIC] [TIFF OMITTED] T4083.082

[GRAPHIC] [TIFF OMITTED] T4083.083

[GRAPHIC] [TIFF OMITTED] T4083.084

[GRAPHIC] [TIFF OMITTED] T4083.085

[GRAPHIC] [TIFF OMITTED] T4083.086

[GRAPHIC] [TIFF OMITTED] T4083.087

[GRAPHIC] [TIFF OMITTED] T4083.088

[GRAPHIC] [TIFF OMITTED] T4083.089

[GRAPHIC] [TIFF OMITTED] T4083.090

[GRAPHIC] [TIFF OMITTED] T4083.091

[GRAPHIC] [TIFF OMITTED] T4083.092

[GRAPHIC] [TIFF OMITTED] T4083.093

[GRAPHIC] [TIFF OMITTED] T4083.094

[GRAPHIC] [TIFF OMITTED] T4083.095

[GRAPHIC] [TIFF OMITTED] T4083.096

[GRAPHIC] [TIFF OMITTED] T4083.097

[GRAPHIC] [TIFF OMITTED] T4083.098

[GRAPHIC] [TIFF OMITTED] T4083.099

[GRAPHIC] [TIFF OMITTED] T4083.100

[GRAPHIC] [TIFF OMITTED] T4083.101

[GRAPHIC] [TIFF OMITTED] T4083.102

[GRAPHIC] [TIFF OMITTED] T4083.103

[GRAPHIC] [TIFF OMITTED] T4083.104

[GRAPHIC] [TIFF OMITTED] T4083.105

[GRAPHIC] [TIFF OMITTED] T4083.106

[GRAPHIC] [TIFF OMITTED] T4083.107

[GRAPHIC] [TIFF OMITTED] T4083.108

[GRAPHIC] [TIFF OMITTED] T4083.109

[GRAPHIC] [TIFF OMITTED] T4083.110

[GRAPHIC] [TIFF OMITTED] T4083.111

[GRAPHIC] [TIFF OMITTED] T4083.112

[GRAPHIC] [TIFF OMITTED] T4083.113

[GRAPHIC] [TIFF OMITTED] T4083.114

[GRAPHIC] [TIFF OMITTED] T4083.115

[GRAPHIC] [TIFF OMITTED] T4083.116

[GRAPHIC] [TIFF OMITTED] T4083.117

[GRAPHIC] [TIFF OMITTED] T4083.118

[GRAPHIC] [TIFF OMITTED] T4083.119

[GRAPHIC] [TIFF OMITTED] T4083.120

[GRAPHIC] [TIFF OMITTED] T4083.169

[GRAPHIC] [TIFF OMITTED] T4083.121

[GRAPHIC] [TIFF OMITTED] T4083.122

[GRAPHIC] [TIFF OMITTED] T4083.123

[GRAPHIC] [TIFF OMITTED] T4083.124

[GRAPHIC] [TIFF OMITTED] T4083.125

[GRAPHIC] [TIFF OMITTED] T4083.126

[GRAPHIC] [TIFF OMITTED] T4083.127

[GRAPHIC] [TIFF OMITTED] T4083.128

[GRAPHIC] [TIFF OMITTED] T4083.129

[GRAPHIC] [TIFF OMITTED] T4083.130

[GRAPHIC] [TIFF OMITTED] T4083.131

[GRAPHIC] [TIFF OMITTED] T4083.132

[GRAPHIC] [TIFF OMITTED] T4083.133

[GRAPHIC] [TIFF OMITTED] T4083.134

[GRAPHIC] [TIFF OMITTED] T4083.135

[GRAPHIC] [TIFF OMITTED] T4083.136

[GRAPHIC] [TIFF OMITTED] T4083.137

[GRAPHIC] [TIFF OMITTED] T4083.138

[GRAPHIC] [TIFF OMITTED] T4083.139

[GRAPHIC] [TIFF OMITTED] T4083.140

[GRAPHIC] [TIFF OMITTED] T4083.141

[GRAPHIC] [TIFF OMITTED] T4083.142

[GRAPHIC] [TIFF OMITTED] T4083.143

[GRAPHIC] [TIFF OMITTED] T4083.144

[GRAPHIC] [TIFF OMITTED] T4083.145

[GRAPHIC] [TIFF OMITTED] T4083.146

[GRAPHIC] [TIFF OMITTED] T4083.147

[GRAPHIC] [TIFF OMITTED] T4083.148

[GRAPHIC] [TIFF OMITTED] T4083.149

[GRAPHIC] [TIFF OMITTED] T4083.150

[GRAPHIC] [TIFF OMITTED] T4083.151

[GRAPHIC] [TIFF OMITTED] T4083.152

[GRAPHIC] [TIFF OMITTED] T4083.153

[GRAPHIC] [TIFF OMITTED] T4083.154

[GRAPHIC] [TIFF OMITTED] T4083.155

[GRAPHIC] [TIFF OMITTED] T4083.156

[GRAPHIC] [TIFF OMITTED] T4083.157

[GRAPHIC] [TIFF OMITTED] T4083.158

[GRAPHIC] [TIFF OMITTED] T4083.159

[GRAPHIC] [TIFF OMITTED] T4083.160

[GRAPHIC] [TIFF OMITTED] T4083.161

[GRAPHIC] [TIFF OMITTED] T4083.162

[GRAPHIC] [TIFF OMITTED] T4083.163

[GRAPHIC] [TIFF OMITTED] T4083.164

[GRAPHIC] [TIFF OMITTED] T4083.165

[GRAPHIC] [TIFF OMITTED] T4083.166

[GRAPHIC] [TIFF OMITTED] T4083.167

[GRAPHIC] [TIFF OMITTED] T4083.168

                                 <all>

</pre></body></html>
